<html>
<title> - ZIMBABWE'S POLITICAL AND ECONOMIC CRISIS</title>
<body><pre>[Senate Hearing 107-102]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-102

                ZIMBABWE'S POLITICAL AND ECONOMIC CRISIS

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 28, 2001

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
73-697                     WASHINGTON : 2001



                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         CRAIG THOMAS, Wyoming
BARBARA BOXER, California            BILL FRIST, Tennessee
ROBERT G. TORRICELLI, New Jersey     LINCOLN D. CHAFEE, Rhode Island
                                     SAM BROWNBACK, Kansas
                     Edwin K. Hall, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman
CHRISTOPHER J.DODD, Connecticut      BILL FRIST, Tennessee
BARBARA BOXER, California            SAM BROWNBACK, Kansas
                                     GORDON SMITH, Oregon

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Kansteiner, Hon. Walter H., Assistant Secretary of State for 
  African Affairs, Department of State, Washington, DC...........     3
    Prepared statement...........................................     4
Prendergast, John, co-director, Africa Program, International 
  Crisis Group, Washington, DC...................................    19
    Prepared statement...........................................    22
Rotberg, Prof. Robert I., president, World Peace Foundation; 
  director, Interstate Conflict and Conflict Prevention Program, 
  Belfer Center, Kennedy School of Government, Harvard 
  University, Cambridge, MA......................................    10
    Prepared statement...........................................    12
Sorokobi, Yves, African Program coordinator, Committee to Protect 
  Journalists, New York, NY......................................    15
    Prepared statement...........................................    18

                                 (iii)

  

 
                ZIMBABWE'S POLITICAL AND ECONOMIC CRISIS

                              ----------                              


                        THURSDAY, JUNE 28, 2001

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2 p.m., in room 
SD-419, Dirksen Senate Office Building, Hon. Russell Feingold 
(chairman of the subcommittee) presiding.
    Present: Senator Feingold.
    Senator Feingold. Good afternoon, the subcommittee will 
come to order. This hearing of the Senate Foreign Relations 
Subcommittee on African Affairs will now come to order.
    And I want to welcome all of the witnesses who have come to 
testify. We appreciate your time and look forward to your 
insights.
    I also want to thank the ranking member, Senator Frist, for 
his leadership on this issue. He is tremendously busy right 
now, what with his work on the bill before us on the floor of 
the Senate, the Patient's Bill of Rights. And I hope he will be 
able to join us.
    But I want everyone to know how proud I have been to work 
with him on the committee in general, and particularly as the 
co-sponsor of the Zimbabwe Democracy and Economic Recovery Act 
of 2001, a bill that sets out clear conditions relating to the 
rule of law and free and fair elections that must be met before 
non-humanitarian assistance to the Government of Zimbabwe, 
which has already been suspended, can be resumed.
    And the assistance the bill authorizes, once those 
conditions have been met is significant indeed; and, in fact, 
potentially very positive.
    Senator Frist and I truly see eye-to-eye on the need to 
bolster those fighting to protect the rule of law and 
democratic institutions in Zimbabwe.
    I had the opportunity to briefly visit Zimbabwe in late 
1999. I came away with two dominant impressions: First, that 
Zimbabwe's civil society was one of the best organized and most 
admirable networks of advocates that I have ever encountered; 
but the second was that there was a great deal of tension in 
the air. Of course, shortly after my visit, the current crisis 
erupted, and Zimbabwe's very recent history is a sad one.
    The state has been complicit in and sometimes has directly 
sponsored violence against those who do not support the ruling 
party, ZANU-PF.
    Judges have been intimidated, and the very integrity of the 
judiciary has been attacked. The government has stepped up 
efforts to constrain and often intimidate the independent 
press.
    The economy, already weakened by mismanagement and 
corruption, is reeling from the violent disruption of economic 
life and the lawlessness that, of course, frightens foreign 
investors, sending capital out of the country at alarming 
rates.
    Reports indicate that agricultural production is down 30 
percent. Unemployment is estimated at 60 percent. And the 
Zimbabwean economy is one of the fastest shrinking economies in 
the world.
    I look forward to learning more about these issues today, 
their effect on the entire southern African region and the 
options for a U.S. policy response.
    Just 2 days ago, I met with Morgan Tsvangirai, the leader 
of Zimbabwe's democratic opposition. He urged me not to paint 
too pessimistic a picture of Zimbabwe at this hearing, and he 
was right.
    Even in these difficult times, I have continued to be 
impressed with the people of Zimbabwe, for their daring vote on 
the constitutional referendum and for their willingness to go 
to the polls in the parliamentary election despite intense 
intimidation.
    Should this crisis abate through a return to the rule of 
law and, of course, free and fair Presidential elections next 
spring, these courageous Zimbabweans will need the support of 
the international community to reinvigorate the economy, to 
address Zimbabwe's devastating AIDS crisis, and to pursue 
urgently needed, genuine, rule-governed land reform that 
meaningfully enfranchises beneficiaries.
    When Secretary of State Powell was in South Africa 
recently, he publicly urged President Mugabe to submit to the 
rule of law and the will of the people, and free and fair 
Presidential elections, instead of pursuing methods that the 
Secretary characterized as totalitarian.
    Secretary Powell was by no means the first prominent figure 
to speak the truth about the Government of Zimbabwe. Former 
President Mandela and Archbishop Tutu have also publicly 
condemned the government's behavior.
    But adding his voice to the chorus of critics signaled an 
important U.S. commitment to addressing Zimbabwe's crisis with 
an honest appraisal of the facts and a genuine desire to help 
the people of Zimbabwe in their efforts to protect their 
remarkable, democratic, law-governed country.
    This is one initiative on which the administration will, I 
believe, enjoy the whole-hearted support of Members of Congress 
on both sides of the aisle, and the support of many Americans 
who have watched in dismay as Zimbabwe has suffered.
    When Senator Frist arrives, I will certainly turn to him 
for his remarks. But at this point, we can go directly to our 
first panel and we are fortunate to have the Assistant 
Secretary of State for African Affairs, Walter Kansteiner, here 
to testify on behalf of the administration.
    The crisis in Zimbabwe is one of the first issues that I 
raised with the Secretary when I met him. And I was encouraged 
by his resolve to make Zimbabwe a priority.
    Later at his confirmation hearing, I was heartened to hear 
him express the administration's concern about this crisis, and 
note that those struggling to uphold human rights and restore 
the rule of law in Zimbabwe also deserve protection and 
support.
    Secretary Kansteiner, it is good to see you before us 
again. I look forward to your testimony. You may go ahead.

    STATEMENT OF HON. WALTER H. KANSTEINER, III, ASSISTANT 
 SECRETARY OF STATE FOR AFRICAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Secretary Kansteiner. Thank you, Mr. Chairman. Thank you 
very much for inviting me to testify today.
    This is the first testimony in front of your subcommittee 
since I was confirmed. And I think it is very appropriate that 
we start with Zimbabwe. It is a crucial issue. It is a tough 
topic. And I look forward to the bipartisan support and effort 
that we will pursue together.
    I would like to briefly outline what the administration 
believes is happening in Zimbabwe and why that country matters 
to the United States and the region. After more than 20 years 
as Zimbabwe's leader, President Robert Mugabe remains in power.
    The ruling party and its supporters have put significant 
pressure on the independent media, the judiciary, elements of 
civil society and the political opposition to counter any 
activities, which threatens ZANU-PF's grip on power.
    The result has been a significant deterioration in 
Zimbabwe's human rights record, a breakdown in the rule of law, 
a furthering of Zimbabwe's economic collapse, and a negative 
impact throughout the region.
    This intense political pressure not only has effects in 
Zimbabwe, but all of Zimbabwe's neighbors are experiencing 
reverberations as foreign investors stay away from southern 
African countries.
    The blame for the political and economic crisis now 
confronting Zimbabwe must be squarely laid at the feet of ZANU-
PF and President Mugabe.
    Our message to President Mugabe and his government must be 
consistent and clear, and that is: While the United States 
desires open and friendly relations with Zimbabwe, we cannot 
have normal relations until the violence and intimidation are 
ended, and the rule of law is fully restored. We believe these 
are the necessary first steps to get Zimbabwe on the road to 
economic recovery and political stability.
    We have from time to time seen some efforts by the 
Government of Zimbabwe to improve its image. But the real test 
of Zimbabwe's commitment to political openness will come in the 
months ahead as Zimbabwe prepares for the Presidential election 
in early 2002.
    The current crisis in Zimbabwe has its roots in many areas. 
Broadly speaking, poor fiscal policies and rampant government 
spending, including the cost of Zimbabwe's military involvement 
in the Congo, set the stage for the present economic meltdown.
    Due in large part to an illegal and chaotic ``fast track'' 
land reform program pursued by the government, the agricultural 
sector has been badly disrupted. And the country's economic 
woes may be accompanied later this year by a significant food 
crisis.
    The coming year will be pivotal for Zimbabwe's future. The 
Presidential election, if conducted in a free and fair manner, 
would further Zimbabwe's emergence as a true multi-party 
democracy no matter who wins. The United States must be clear 
on this point.
    It is up to Zimbabweans themselves to decide who will 
govern them. And they must be given the opportunity to choose 
freely.
    Unfortunately, statements by ZANU-PF's officials that they 
will never allow another party to take office, and the ongoing 
violence and intimidation and significant electoral 
irregularities in previous elections all raise concerns.
    Zimbabwe matters to us. Zimbabwe is a country of great 
potential, with good institutional infrastructure. As you 
noted, Mr. Chairman, they have excellent checks and balances. 
They have a judiciary and executive branch, a competent civil 
service and a strong independent media. However, some of these 
institutions in recent months have come under severe pressure.
    Under the proper circumstances, Zimbabwe could be an engine 
of growth for the region, helping itself and its neighbors 
confront the HIV/AIDS pandemic, widespread poverty and other 
social ills.
    Zimbabwe is blessed with significant natural and human 
resources, and if effective economic and business plans were 
permitted to be drawn up and enacted, Zimbabwe's economy would 
experience impressive growth.
    Zimbabwe's continuing decline will witness outflows of 
people seeking to escape Zimbabwe's economic and political 
crisis, a continuing decline in investment in the region and 
greater instability throughout southern Africa.
    The United States must stand ready to assist Zimbabwe when 
circumstances allow. Together with other donors, there is much 
we can do once Zimbabwe begins to implement appropriate 
policies.
    We could help them with their longstanding debt. We could 
help them with inequitable distribution of land. And it is a 
legitimate problem. And it does not matter who wins the 
Presidential election--land redistribution is going to be an 
issue that will face whoever holds office.
    The United States can encourage renewed engagement with 
Zimbabwe by international financial institutions such as the 
World Bank and IMF, helping restore macroeconomic stability and 
growth in the country.
    And we can look at our bilateral assistance programs to 
determine how best we can help the government and people of 
Zimbabwe.
    At this point, however, the ball is firmly in President 
Mugabe's court. I believe it is incumbent upon the 
administration to work closely with Congress in efforts to 
encourage the Zimbabwe Government in allowing for an open and 
fair electoral process, permitting the Zimbabwe body politic to 
determine the country's course.
    Thank you very much.
    [The prepared statement of Secretary Kansteiner follows:]

          Prepared Statement of Hon. Walter H. Kansteiner III

    Thank you for inviting me to testify today on Zimbabwe. I would 
like to briefly outline what the Administration believes is happening 
in that country, and why Zimbabwe matters to the United States and the 
region.
    After more than 20 years as Zimbabwe's leader, President Robert 
Mugabe remains in power. The ruling party and its supporters have put 
significant pressure on the independent media, the judiciary, elements 
of civil society, and the political opposition to counter any 
activities which threaten ZANU-PF's grip on power. The result has been 
a significant deterioration in Zimbabwe's human rights record, a 
breakdown in the rule of law, a furthering of Zimbabwe's economic 
collapse, and a negative impact throughout southern Africa. This 
intense political pressure not only has affects in Zimbabwe, but all of 
Zimbabwe's neighbors are experiencing reverberations, as foreign 
investors stay away from the southern African region.
    The blame for the political and economic crisis now confronting 
Zimbabwe must be laid squarely at the feet of ZANU-PF and President 
Mugabe. Our message to President Mugabe and his government must be 
consistent and clear: while the United States desires open and friendly 
relations with Zimbabwe, we cannot have normal relations until the 
violence and intimidation are ended, and the rule of law is restored. 
We believe these are the necessary first steps to get Zimbabwe on the 
road to economic recovery and political stability. We have, from time 
to time, seen some efforts by the Government of Zimbabwe to improve its 
image, but the real test of Zimbabwe's commitment to political openness 
will come in the months ahead, as Zimbabwe prepares for elections in 
early 2002.
    The current crisis in Zimbabwe has its roots in many areas. Broadly 
speaking, poor fiscal policies and rampant government spending--
including the cost of Zimbabwe's military involvement in the Congo--set 
the stage for the present economic meltdown. Due in large part to an 
illegal and chaotic ``fast track'' land reform program pursued by the 
government, the agricultural sector has been badly disrupted, and the 
country's economic woes may be accompanied later this year by a 
significant food shortage. On the political front, the sudden and 
dramatic rise less than two years ago of Zimbabwe's first viable-
opposition party--the Movement for Democratic Change or MDC--threatened 
the ruling party's previously unassailable grip on power. The challenge 
to the Mugabe regime represented by the emergence of the MDC sparked a 
surge in politically motivated violence and intimidation which began in 
earnest in early 2000 and continues to the present day. Most of this 
violence and intimidation is perpetrated by supporters of ZANU-PF.
    The coming year will be pivotal for Zimbabwe's future. The 
presidential election--if conducted in a free and fair manner--would 
further Zimbabwe's emergence as a true multiparty democracy, no matter 
who wins. The United States must be clear on this point: it is up to 
Zimbabweans themselves to decide who will govern them, and they must be 
given the opportunity to choose freely. Unfortunately, statements by 
ZANU-PF officials that they will never allow another party to take 
office, the ongoing violence and intimidation, and significant 
electoral irregularities in previous elections all raise legitimate 
concerns.
    Zimbabwe matters to the United States. Zimbabwe is a country of 
great potential with a good institutional infrastructure including a 
constitution, checks and balances between parliament, judiciary and 
executive, a competent civil service, and a strong independent media. 
Under the proper circumstances, Zimbabwe could prove an engine of 
growth for the region, helping itself and its poorer neighbors confront 
the HIV/AIDS pandemic, widespread poverty, and other social ills with 
less foreign assistance. Zimbabwe is blessed with significant natural 
and human resources, and if effective economic and business plans were 
permitted to be drawn-up and enacted, Zimbabwe's economy would 
experience impressive growth. Zimbabwe's continuing decline will 
witness continuing outflows of people seeking to escape Zimbabwe's 
economic and political crisis, a continuing decline in investment in 
the region, and greater instability throughout southern Africa.
    The United States must stand ready to assist Zimbabwe when 
circumstances allow. Together with other donors, there is much we can 
do once Zimbabwe begins to implement appropriate policies. We can help 
Zimbabwe resolve its long-standing problem regarding the inequitable 
distribution of land, a legitimate problem which ZANU-PF has, 
unfortunately, exacerbated for political ends, but an issue which must 
be addressed, regardless of which political party may hold office.
    The United States can encourage renewed engagement with Zimbabwe by 
international financial institutions such as the World Bank and 
International Monetary Fund, helping restore macroeconomic stability 
and growth in the country. And we can look at our own bilateral 
assistance programs to determine how best we can help the government 
and people of Zimbabwe turn their country back from the brink and 
restore Zimbabwe's promise as a bastion of economic and political 
stability in Africa.
    At this point, however, the ball is very much in President Mugabe's 
court. I believe it is incumbent upon the Administration to work 
closely with Congress in efforts to persuade President Mugabe and his 
party to allow for an open and fair electoral process, permitting the 
Zimbabwe body politic to determine the country's course.

    Senator Feingold. I thank you, Mr. Secretary.
    I will ask you some questions.
    You mentioned--and I know that many people are concerned 
about--possible food shortages occurring in Zimbabwe. Many in 
the United States are concerned about what the appropriate 
policy response to that would be.
    Nobody wants the people of Zimbabwe to suffer, but at the 
same time I do not think any of us want the United States' 
assistance to be manipulated by this government or doled out to 
win votes.
    So what is the United States doing now to prepare for this 
rather difficult scenario?
    Secretary Kansteiner. We are actually in the process of 
getting assessments of what exactly those food shortages might 
look like. And there are quite frankly differing estimates.
    The consensus does seem to be that there will be probably a 
wheat shortage, that is for bread in the urban areas in the 
fourth quarter of this year, followed by possibly a maize 
shortage in the first quarter of next year.
    So what we are doing now is preparing with USAID and other 
multilateral agencies and other countries in how we might 
actually deliver that food assistance.
    As you know, much of the Zimbabwe grain system is 
controlled and dominated by the government, but not all of it. 
So we are looking for ways where we can assist but not let it 
become a political tool.
    Senator Feingold. Very good. Obviously, the elections are 
so important that are coming up, the Presidential elections. 
And there is going to have to be a lot of international 
attention focused on that.
    Can you assure me that the United States, working with 
other members of the international community, will clearly and 
publicly articulate just what is meant by free and fair 
elections, and that the United States will speak out about pre-
election conditions as well as the election itself?
    Secretary Kansteiner. Absolutely. In fact, one lesson that 
we learned through the years on democracy building efforts is 
that we cannot just send in election monitors the last week of 
the election process and--where they are looking at the 
election day balloting, which is very important. We will want 
to encourage NGO's and PVO's from all over the world, and 
including a U.S. Government delegation, with a strong 
congressional component, we hope, to be there on election day.
    But a lot happens before election day and really we are 
starting to see the beginning of the electoral process in 
Zimbabwe right now. So we are looking for ways to begin that 
pre-election environment monitoring now, because we think it is 
so critical.
    Senator Feingold. Well, that tracks exactly with the point 
that the opposition leader made to me, that there needs to be 
attention to this well before the election, not simply at the 
time or just a few days before.
    A broader problem that we all face in dealing with an issue 
like this, in terms of the U.S. policy response to the crisis 
in Zimbabwe, is the question of how to respond to those who 
insist that international pressure will not affect President 
Mugabe and that, in fact, pressure from the United States only 
plays into his strategy for portraying Zimbabwean voices of 
dissent as puppets of the West?
    Secretary Kansteiner. And I think rhetoric and perception 
of rhetoric is important. And I hope it remains important to 
ZANU-PF and to President Mugabe.
    What I think we need to focus on is calling for a free and 
fair election. We want the process to be allowed to go forward 
in a proper manner.
    I think we have to describe the situation in an honest and 
truthful way. And if that process is not unfolding in a free 
and fair and level playing field sort of way, then I think we 
need to call them on it.
    But at the same time, we do not want a lot of unnecessary 
rhetoric. We want constructive rhetoric. I mean, we want some 
ideas that the whole multilateral communities and I am looking 
now toward the Commonwealth and to the EU--because they are 
clearly playing a significant and important role in this.
    You know, we want to coordinate with them and we want to 
push the process in a positive direction and not just resort to 
the rhetoric.
    Senator Feingold. One of the aspects of this issue that we 
have been focusing on in our office, and obviously your 
comments suggest your sensitivity to it as well, is the concern 
about the potential of this crisis in Zimbabwe to destabilize 
the economies and societies of other southern African 
countries.
    President Mogae of Botswana recently visited and I had a 
chance to speak with him. He mentioned a drop off in tourism in 
his country to me.
    Have you been getting reports from our embassies in the 
region about other consequences of the crisis being felt beyond 
the borders of Zimbabwe itself?
    Secretary Kansteiner. Yes. We do not have any data that has 
been compiled to suggest percentages of foreign direct 
investment or portfolio investment dropping off, although we 
are looking for those. But we certainly have anecdotal evidence 
that would demonstrate that foreign direct investment, 
particularly, has dropped off.
    South Africa and Botswana are probably the two countries 
that are getting hit with it most. I personally know of at 
least two acquisitions that were going forward in South Africa 
that were put on hold primarily because of the worries and 
anxiety of what was happening north of the Limpopo.
    Senator Feingold. If it would not be too much trouble and 
easy enough to do, if you could share at some future point some 
of that anecdotal evidence, it would be helpful for me in 
understanding how this actually occurs.
    Secretary Kansteiner. Absolutely. I would be happy to.
    Senator Feingold. I also know that you have been frustrated 
and I have been frustrated by the reluctance of some of the 
other leaders in the Southern African region to actually 
condemn the tactics employed by ZANU-PF over the past year and 
a half.
    Do you think that there has been any turn in the tide on 
this issue and that the other regional leaders are more willing 
to really start publicly pressuring the Government of Zimbabwe?
    Secretary Kansteiner. We do. The recent agreement among the 
Commonwealth Seven, as they are starting to be called, I think 
demonstrates that. That involves Zimbabwe, South Africa, Kenya, 
Nigeria, Australia, the UK and I believe, Jamaica or Barbados.
    We think that that is a good effort and we want to be 
supportive of that, the Commonwealth Seven effort, to look into 
a host of issues concerning Zimbabwe, everything from electoral 
processes to land reform to land redistribution, and 
independent judiciary. The Commonwealth group is now really 
drawing up an agenda list.
    I think this is going to be a forum that the South 
Africans, and the Kenyans and the Nigerians and the British can 
all participate in. And because it is a Commonwealth group of 
seven, it gives them some flexibility and some maneuvering 
room.
    So we are hopeful in that. And we think that might signal 
perhaps an increased involvement with Zimbabwe by all seven of 
those members.
    Senator Feingold. Well, I think that and any other efforts 
by the leaders in the region at this point would be very 
timely, leading up into the rest of the year and heading into 
the elections next year. It is a critical time for that.
    You referred to the Zimbabwean involvement in Congo. Do you 
think that the return of the Zimbabwean troops from the 
Democratic Republic of the Congo [DROC] to Zimbabwe will be a 
destabilizing factor in that country?
    For example, how would Zimbabwe's military react if a state 
of emergency were called and they were asked to impose martial 
law?
    Secretary Kansteiner. The role of the army in Zimbabwe 
could end up being critical and it is important that we 
understand it.
    To be honest with you, we do not exactly know what 
motivates some of the senior military officer corp in 
Zimbabwe's Army. We could speculate.
    Obviously, there are a few at the highest level that seem 
to be benefiting materially from the involvement in the Congo. 
So some reluctance on their part to depart from the Congo would 
be understood, if they are, in fact, receiving benefits from 
the resources up there.
    The rest of the army in Zimbabwe seems to be professional, 
especially the mid-level officer corps. And indications seem 
that they would be loyal to whatever party is in office that 
has been freely and fairly elected.
    Senator Feingold. I obviously hope that is correct. 
Finally, I would ask you what is the United States doing to 
help Zimbabweans fight the HIV/AIDS pandemic and to what degree 
are our efforts and those of the rest of the international 
community being hampered by this political and economic crisis?
    Secretary Kansteiner. Well, as you and Senator Frist both 
know so well, the HIV/AIDS pandemic is problematic under any 
circumstances, but when you layer on the political and economic 
instability that we are now seeing in Zimbabwe, HIV/AIDS 
prevention and treatment efforts become extremely difficult.
    USAID remains involved looking at and working with HIV/AIDS 
centers in Zimbabwe, so we are still involved in that. But it 
becomes that much harder when you have political, social and 
economic arrest all brewing just beneath the surface.
    Senator Feingold. Well, it was already tragic when we 
visited in December 1999. The thought of that--trying to fight 
that being made even more difficult--is deeply troubling.
    But I do want to thank you very much, Mr. Secretary. Thank 
you for your testimony and your willingness to work on this 
issue and I look forward to working with you on this very much.
    Secretary Kansteiner. Thank you very much.
    Senator Feingold. I ask the members of the second panel to 
come forward.
    [Pause.]
    Senator Feingold. We have an excellent panel of witnesses 
testifying before the subcommittee today. Professor Robert 
Rotberg, Mr. Yves Sorokobi, and Mr. John Prendergast.
    Professor Rotberg is the president at the World Peace 
Foundation and the director of the foundation's program on 
Interstate Conflict and Conflict Prevention, Belfer Center of 
the Kennedy School of Government at Harvard University.
    He has served as a professor of political science and 
history at MIT, academic vice president at Tufts University, 
and president of Lafayette College.
    Professor Rotberg's writing about U.S. foreign policy in 
Africa has been widely published, both in articles and in 
books.
    Mr. Sorokobi is the Africa Program coordinator at the 
Committee to Protect Journalists. He previously worked as a New 
York-based freelance journalist for 4 years in both radio and 
print journalism.
    Before settling in the United States, he reported on Africa 
for Radio France Internationale, the Japan Broadcasting 
Corporation and was the Pan-Africa News Agency correspondent in 
Germany and Eastern Europe. He is originally from Cote 
d'Ivoire.
    John Prendergast is the co-director of the Africa Program 
at the International Crisis Group. During the Clinton 
administration, he served as a Special Advisor to the U.S. 
State Department where he specialized in conflict resolution 
initiatives in Africa.
    Prior to joining the State Department, he was an executive 
fellow of the United States Institute of Peace, and before that 
Director for African Affairs at the National Security Council, 
where he provided support to the President, the National 
Security Advisor and successive senior directors on overall 
Africa policy.
    After hearing from all of you, we will move to some 
questions and answers. So, Professor Rotberg, why not begin 
with your testimony?

  STATEMENT OF PROFESSOR ROBERT I. ROTBERG, PRESIDENT, WORLD 
 PEACE FOUNDATION; DIRECTOR, INTERSTATE CONFLICT AND CONFLICT 
     PREVENTION PROGRAM, BELFER CENTER, KENNEDY SCHOOL OF 
         GOVERNMENT, HARVARD UNIVERSITY, CAMBRIDGE, MA

    Professor Rotberg. Thank you, Mr. Chairman. Thank you for 
inviting me to testify. I will summarize my prepared testimony 
in 17 points.
    There are few African tragedies more avoidable and more 
wasteful than Zimbabwe's. It was and is a country with 
excellent economic, political and social prospects. It has the 
best educated human resources in sub-Saharan Africa.
    It had a thriving, well-balanced economy in agriculture, 
mineral manufacturing and tourism. Most of that is gone.
    Despite being landlocked and having experienced war, 
Zimbabwe was poised in the 1980's for significant growth within 
a framework of the rule of law. But the excesses of the Mugabe 
regime first stalled and now have undercut that progress.
    Second, the measures of Zimbabwe's economic meltdown are 
clear in this year's collapse of the Zimbabwe dollar versus the 
U.S. dollar, down to 150 to 1 as of yesterday. Inflation levels 
are 60 percent or higher.
    There are foreign exchange scarcities, which we know about. 
We know about the recent price rises on fuel and bread, and 
more will follow.
    We know that at least 60 percent of adults in the urban 
areas are unemployed. We have just heard about the coming food 
shortages. I suspect they may come sooner rather than later.
    Mugabe's actions, especially his sending troops to the 
Congo, have contributed significantly to the evisceration of 
the people of Zimbabwe, and also to the alarming spread of AIDS 
in that country and in that region.
    I estimate that Zimbabweans are one-third to one-half 
poorer and sicker than they were at independence.
    Third, there is a real land issue. Whites did take African 
land unfairly and illegally, especially in the 1930's after the 
Carter Commission sanctioned it. But using terroristic means 
that have been ruled illegal by the Zimbabwean Supreme Court to 
resolve this difficult problem is clearly not the best way to 
accomplish a transfer of land occupation and ownership.
    That is best done systematically and prudently according to 
the 1998 protocols, which were satisfactorily agreed to in 
Zimbabwe.
    The current tactics, using so-call war veterans, have 
purely political ends in mind. At no time from 1980 did 
President Mugabe undertake seriously to reform land ownership, 
to which the MDC is now pledged.
    Fourth, government control of the broadcast spectrum makes 
fair comment and the dissemination of factual news problematic 
at best. The independent press can provide a counterweight in 
the cities, but can do so only with difficulty in rural areas.
    Fifth, South Africa and southern Africa are now at risk. 
The chaos in Zimbabwe, especially the President's refusal to 
abide by the rule of law, threatens the political and economic 
development of its neighbors. The blatantly corrupt nature of 
the Zimbabwean Government is also corrosive locally and far 
beyond its borders.
    Sixth, free and fair Presidential elections are essential, 
as Secretary of State Powell enunciated so clearly in 
Johannesburg. But elections may not be in President Mugabe's 
interest. So he may well attempt to arrange circumstances so 
that elections never happen.
    States of emergency and the banning of the MDC, as well as 
continued political thuggery, are very possible scenarios in 
the near and medium term.
    Therefore, seventh, it is critical that Pretoria, as well 
as Washington, forthrightly condemn the Government of 
Zimbabwe's flouting the rule of law, its refusal to take the 
advice of its neighbors and friends; its endangering of the 
human rights and civil liberties of all its people; and the 
siphoning of the country's economic wealth out of the country 
and into the hands of a few.
    Washington should work hard with Pretoria to enunciate a 
clear and assertive policy position on each of these matters.
    Eighth, Zimbabwe is ripe for change. Its suffering people 
require change.
    Ninth, constructive engagement with Zimbabwe has been tried 
and failed. It is time to speak and act firmly with regard to 
the government and the President there.
    Tenth, as you have said, Mr. Chairman, expedited passage of 
the Zimbabwe Democracy and Economic Recovery Act will prove 
very helpful in providing clear incentives for President 
Mugabe, his government and his cronies.
    Eleventh, I favor joining continued explicit criticism of 
the Mugabe regime's excesses with promises of economic and 
other assistance, which are in the bill, of course, when and if 
Zimbabwe holds a free and fair election; and when and if there 
is resumed adherence to the rule of law and a full resumption 
of democratic practices.
    Twelfth, Washington should insist upon the rapid removal of 
the Zimbabwean troops from the Congo. That is really the first 
essential condition--the start of a return to normalcy.
    Thirteenth, we should do what we can to ostracize the 
Mugabe government and its officials from a Washington point of 
view.
    Fourteenth, we should bar Zimbabwean Government officials, 
military officers, and leading ZANU-PF party leaders and their 
families from travel to the United States and Europe until 
Zimbabwe returns to democratic practices.
    Fifteenth, we should continue to bar financial assistance 
to Zimbabwe until democracy returns. That might mean doing a 
little more than we are doing now.
    Sixteenth, we should try to strengthen Zimbabwe's free 
press and support new private broadcast initiatives.
    And finally, we must support and reward good leadership in 
Africa and must administer tough love in those situations where 
venal and corrupt men still prey on their people.
    Thank you.
    [The prepared statement of Professor Rotberg follows:]

             Prepared Statement of Prof. Robert I. Rotberg

    Senator Feingold and members of the subcommittee:
    I direct the Program on Intrastate Conflict and Conflict Prevention 
in the Kennedy School of Government, Harvard University, where I also 
teach African politics, and am President of the ninety-one year old 
World Peace Foundation. For many years I was Professor of Political 
Science and History at M.I.T. I am the author of a number of books and 
many articles on southern Africa, including Zimbabwe. The most recent 
longer articles of relevance to this hearing are ``Africa's Mess, 
Mugabe's Mayhem,'' in Foreign Affairs (Sept.-Oct., 2000) and 
``Lawlessness and Dictatorship in Zimbabwe,'' African Geopolitics 
(Spring, 2001). I have also written a number of recent newspaper 
opinion pieces on the Zimbabwe situation in the New York Times, Boston 
Globe, Christian Science Monitor, and Southern Africa Report. I am a 
long time student of Zimbabwean politics, and have known many of its 
past, present, and future leaders over considerable periods of time. I 
was last in Zimbabwe in May 2001.

                          A MAN-MADE DISASTER

    Africa's failure to thrive at the end of the last century has many 
causes, not least mismanagement. We can pin the blame for Africa's 
failure on shifts in world commodity prices, misguided World Bank and 
International Monetary Fund policies, civil wars, climatic disasters, 
unchecked population bulges, the scourge of AIDS, and so on. But the 
visible hand of individual rulers can also be discerned. And no single 
exemplar of failed leadership surpasses that of President Robert 
Gabriel Mugabe, who has been prime minister or president of Zimbabwe 
since 1980. In the annals of human-made disasters in Africa, his comes 
very close to equaling the inspired debacles of Mobutu Sese Soko in 
Congo (Zaire), Idi Amin in Uganda, and Jean Fidel Bokassa in the 
Central African Empire. But Mugabe is well educated, which they were 
not, and Mugabe leads a nation once comparatively robust and 
prosperous, with the best-educated citizenry (per capita) on the 
continent of Africa. The gifted Mugabe inherited a well-run, well-off 
territory. Hence Zimbabwe is the greater tragedy, for he has robbed his 
country and his people of its peace, its security, and its patrimony, 
and he has mortgaged much of its human, social, and economic potential.
    Zimbabwe has been on an economic slide since 1995, but went into a 
determined free fall in 1997. The comparatively (for Africa) wealthy 
country's per capita real GDP slumped in the late 1990s from $645 in 
1995 to $437 in 1999. Current estimates put annual per capita GDP at 
about $300, which approaches the unfortunate levels of Mozambique, 
Malawi, and Ethiopia. (Botswana's GDP per capita, for comparison, is 
about ten times Zimbabwe's.)
    Zimbabwe's rates of GDP growth tumbled from 7.3 percent per annum 
in 1996, to -1 percent in 1999, and to about -10 percent in 2000. 
Consumer price inflation has shot up from 22 percent in 1995 to 58 
percent in 1999, and to about 60 percent in 2000. Zimbabwe's foreign 
currency reserves were essentially exhausted last summer, but with help 
from South Africa and elsewhere and by practicing fiscal legerdemain at 
home, Zimbabwe limps along from week to week. Zimbabwe's currency 
exchange rate against the U.S. dollar collapsed from 8 Zimbabwean 
dollars (Z$) to $1 in 1995 to Z$23 to $1 in 1998, fell to an 
artificially controlled level of Z$38 to $1 in 1999, and now hovers 
officially at Z$55 to $1 while the parallel, widely quoted, rate is 
about Z$150 to $1.
    The people of Zimbabwe are one-third to one-half poorer than they 
were at independence. With the onset of AIDS, their life expectancies 
have fallen from the 60s into the low 40s, and infant mortality rates 
have risen rapidly. The modern look of Zimbabwe speaks to a hopeful 
past and a possible future, but not to the Mugabe-initiated national 
collapse into intensifying poverty. More than 60 percent of urban 
adults are unemployed. Health and educational services are greatly 
deteriorated.
    For Zimbabwean consumers since late 1999, life has been a 
succession of mile-long lines for gasoline for their cars, diesel fuel 
for their tractors and trucks, and kerosene for home cooking. This 
month's government-decreed 70 percent price increases for gasoline, 
diesel, and kerosene have sparked heated consumer resentment. Bread 
prices have also risen by about the same amount, and other consumer 
good price rises will follow. Local observers predict massive shortages 
of wheat flour and maize flour, the staple foods of most Zimbabweans.
    Factories have closed because of attacks by hoodlums loyal to 
Mugabe and because of shortages of foreign exchange with which to pay 
for imported raw materials. There is also reduced demand. Stores are 
shuttered throughout Harare's principal arcades and shopping centers. 
Thugs continued to attack and occupy farms as late as this week. In 
Mashonaland East, farmers this week were told to stop planting crops, 
despite the predicted food shortages. A leading black farmer lost his 
farm this week. He happened to be a member of the opposition to Mugabe. 
In every sense, Zimbabwe's economy is in shambles.
    The root of much of the country's economic meltdown is the 
government's pronounced failure to control its fiscal deficit, which 
rose alarmingly from 8 percent of GDP in 1998 to 12 percent in 1999 to 
28 percent in 2000. Despite endless promises to the IMF throughout the 
1990s, Zimbabwe failed to trim its official wage bill by reducing 
excess civil servants and soldiers from the employment rolls. But the 
precipitating cause of Zimbabwe's economic collapse was Mugabe's 
personal decision (without prior consultation with parliament, the 
cabinet, or his ruling political party's central committee) to send 
Zimbabwean soldiers into the Democratic Republic of the Congo in 1998 
to bolster the late Laurent Kabila's tattered government against rebels 
supported by Rwanda and Uganda.
    Mugabe wanted to show Presidents Yoweri Museveni of Uganda and 
Nelson Mandela of South Africa that he still counted as an African 
leader. Equally important, Kabila offered Mugabe and Mugabe's close 
cronies a chance to line their pockets with the Congo's mineral wealth. 
Although the Zimbabwean treasury paid the troops, purchased the 
ammunition, and obtained the fuel that let Mugabe's troops survive in 
the eastern Congo, a few individuals (including the president) profited 
(and still profit) handsomely.
    If sending troops to the Democratic Republic of the Congo were not 
damaging enough at home, Mugabe compounded his nation's misery in 2000 
by sending rent-a-thug so-called war veterans to occupy a third of the 
country's commercial farms. Whatever moral justification there was and 
is for evicting whites (and a few blacks) from farms that have been in 
non-indigenous hands for 50 to 100 years after being purchased or 
stolen from Africans--land reform and land rectification is essential 
to right the wrongs of the past--the coercive and illegal methods thus 
utilized to destroy agricultural productivity were politically inspired 
and economically and politically disastrous. Mugabe's bullying has 
jeopardized the employment and wages of 400,000 African farm laborers 
and their families, inhibited reinvestment by farmers, and chilled 
domestic trade and banking. The climate of fear has also destroyed 
Zimbabwe's once thriving tourist industry.
    The economic and political cancer of Mugabe's Zimbabwe has already 
infected the political and economic prospects of southern Africa, 
especially South Africa, and threatens to endanger much of sub-Saharan 
Africa. South Africa has seen its own currency depreciate, its economic 
growth become compromised, and its race relations (especially in the 
farming areas) become more worrying--all because of the troubles in 
Zimbabwe.
    Nearly a million immigrants have already walked into South Africa 
from its northern neighbor, an exodus that greatly complicates 
President Thabo Mbeki's ability to develop his own country. Substantial 
foreign investment has been withheld. Tourism has been affected. 
Political, social, and economic opportunities for South Africa have 
been curtailed by the long months of instability beyond its border.
    South Africa is right to fear a further cascade of chaos that would 
be unleashed in Zimbabwe and inevitably affect its neighbors adversely. 
But the longer lawlessness, corruption, and mayhem are allowed to 
prevail in Zimbabwe, the worse the eventual results will be for South 
Africa and all of southern Africa. There is a premium on considered 
early action to help restore the rule of law and political and 
institutional legitimacy to Zimbabwe.
    The guided democracy which plagued Zimbabwe throughout the 1980s 
and early 1990s has since become an unremitting autocracy. U.S. 
Secretary of State Colin L. Powell was right to term Mugabe's rule 
totalitarian. By ignoring the rulings of his country's Supreme Court, 
by attacking the free press and preventing non-governmental radio 
broadcasting (despite court orders), Mugabe has made a mockery of his 
own people's ability to pursue their lives in freedom. He has destroyed 
a once open society, largely for personal gain and personal power.
    There is no doubt that by snubbing the judges, snubbing the 
criticisms of his fellow African presidents, and recklessly pursuing an 
agenda that is completely personalistic, Mugabe has moved Zimbabwe and, 
alas, southern Africa, backwards. Land reform is essential, but 
Mugabe's invasions of lands and factories have been designed, however 
foolishly, to intimidate supporters of the opposition Movement for 
Democratic Change (MDC), not to accomplish real political or economic 
objectives. He has savaged what he had earlier built up, and for 
narrow, naked political purposes.
    Given the results of the referendum in 2000 and the parliamentary 
elections in 2000, Mugabe rightly fears that he will lose the 
presidential election scheduled for 2002 unless he can harass and cow 
the mass of Zimbabweans sufficiently to make them fear for their lives 
unless they back ZANU-PF and Mugabe. This is the Charles Taylor 
approach. The regime's current tactics of terror are designed with such 
unsavory ends in mind.
    But the election may never take place. If Mugabe can be assured of 
the loyalty of the army, and if his training of special police 
paramilitary cadres proceeds according to current plans, then he can 
provoke or precipitate conditions capable of justifying the declaration 
of a state of emergency, or some similar draconian further suspension 
of the rule of law. Then Mugabe could, and will, ban political parties 
and postpone or abnegate normal electoral conditions. We may be 
approaching such a decisive downward realignment of Zimbabwe's 
political and social contract. The people would long ago have taken to 
the streets, Belgrade style, if the fear of state-sponsored reprisals 
and other consequences had not inhibited the upwelling of their anger.
    Pretoria and Washington should not assume that elections in 2002 
are a given. It is important, nevertheless, for leaders in both 
capitals to demand such elections, and to insist upon an end to state-
sponsored intimidation in upcoming municipal and constituency by-
elections. Intolerance for anything other than free and fair 
presidential elections should be reiterated for private and public 
consumption. Jawboning helps.
    There is some speculation, unfounded in my view, that the 
opposition MDC is less than a credible challenger to ZANU-PF, and/or 
that President Morgan Tsvangirai of the MDC is not or will not be an 
effective electoral opponent of Mugabe. Both such critiques are 
erroneous, as the MDC's urban and rural victories in the 2000 
parliamentary elections and in the recent Masvingo mayoral election 
demonstrate. Such public opinion polls as have been undertaken also 
support the popular mandate of the MDC. Equally impressive, especially 
for Africa, is the non-ethnic character of the MDC, uniting Zimbabweans 
for change in a manner that is rare. As a party, too, the MDC is much 
more robust than it was a year ago, hardened as it has been by the 
realities of brutal intimidation and by funding scarcities, but 
emboldened by the evident support of a population, urban and rural, 
Ndebele and Shona, male and female, that is much more thoroughly 
alienated from the Mugabe regime than it was even a year ago.

                 WHAT CAN BE DONE? WHAT SHOULD BE DONE?

    Washington must work closely with Pretoria, London and other 
African and European capitals, to condenm the intolerable quality of 
Mugabe's arrogant affront to his own people. For policy purposes, it is 
critical that Washington, Pretoria, and others openly declare (as 
Secretary Powell has done) that totalitarian rule in Zimbabwe is 
unacceptable. Saying so, repeatedly if necessary, will strengthen the 
hand of civil society within Zimbabwe (and Africa), and will embolden 
those within Mugabe's own ZANU-PF apparatus who want change from 
within, but are frightened.
    If Washington and Pretoria can speak clearly with the same message, 
Africa and Europe will follow. Naming violators of human rights is 
essential, inexpensive, salutary, and capable of uplifting those in 
Zimbabwe and other countries who despair and are battered.

                   WHAT MORE CAN AND SHOULD BE DONE?

    We should:

  <bullet> Continue to diminish any remaining financial aid flows to 
        Zimbabwe.

  <bullet> Promise critical economic assistance to help reconstruct 
        Zimbabwe when, and only when, the rule of law and full 
        participatory democracy are restored and functioning.

  <bullet> Continue to deny Zimbabwe access to the benefits of the 
        African Growth and Opportunity Act. But we should promise swift 
        access to those benefits once the rule of law and democracy are 
        once again realized.

  <bullet> Bar Zimbabwean governmental officials, military officers, 
        leading ZANU-PF members, and their families from travel to the 
        U.S. and Europe until Zimbabwe is again democratic.

  <bullet> Ostracize Zimbabwe's current regime, and isolate it 
        internationally, so long as the country is unfree and 
        autocratically ruled.

  <bullet> Discover legal ways of strengthening the free press and new 
        private broadcast initiatives in Zimbabwe.

  <bullet> Swiftly enact the Zimbabwe Democracy and Economic Recovery 
        Act of 2001. Each of its sections contributes to the importance 
        of the bill. I particularly commend the provisions of Sec. 6. 
        The Act will give Mugabe an incentive to choose between actions 
        which are good for his country and those which are only good 
        and profitable for himself.

    There is a bottom line: It is long past time for constructive 
engagement in the case of Mugabe's Zimbabwe. Wooing him might have made 
sense years ago, but not now. Good leadership in Africa should be 
rewarded, participatory leadership supported, and sensible economic 
management backed--but bad leadership and bad policy should be 
condemned so that new leaders and better policies may clearly be 
differentiated, and consolidated.
    Zimbabwe is ripe for change. Washington and Pretoria need together 
to provide conditions conducive to that change, and together to say 
explicitly that is what is being done.

    Senator Feingold. Thank you, Professor. I thought you were 
kidding when you said you had 17 points, but you did it most 
efficiently. Thank you very much.
    Mr. Sorokobi.

    STATEMENT OF YVES SOROKOBI, AFRICA PROGRAM COORDINATOR, 
         COMMITTEE TO PROTECT JOURNALISTS, NEW YORK, NY

    Mr. Sorokobi. Thank you, Senator Feingold. Ladies and 
gentlemen, the Committee to Protect Journalists [CPJ], which I 
represent here today is an independent, non-profit organization 
based in New York.
    We document, publicize and protest physical and legal 
attacks on journalists and other violations of their 
professional rights. We also work with governments, including 
the Government of Zimbabwe and civil groups to improves press 
freedom conditions around the world.
    As you know, and as other witnesses before me have 
stressed, Zimbabwe currently has one of Africa's most volatile 
media environments.
    Over the past 2 years, Zimbabwean journalists have come 
under increased pressure from the ZANU-PF government. Since 
December 1999, that is roughly less than 18 months, CPJ has 
documented over 40 abuses of press freedom, including two bomb 
explosions against a private newspaper, the deportation of 
foreign correspondents, a host of criminal defamation lawsuits 
brought by government officials against journalists and several 
beatings of journalists by police and supporters of the ruling 
party, most prominently war veterans.
    Zimbabwe's Constitution in its section number 20 guarantees 
``freedom of expression,'' but the country's laws are silent on 
freedom of the press. Zimbabwean authorities have argued that 
freedom of expression extends to freedom of the press.
    But local journalists have been demanding a specific press 
freedom clause. So far, to no avail.
    One point that I need to stress that is not included in my 
written statement is the fact that everything that will come 
after this point consists of the legal issues that journalists 
are facing, which are very essential to understanding the 
crisis the media is in in Zimbabwe.
    One thing worth noting is that the judiciary has been the 
backbone of the growth of the Zimbabwean media. So the 
government's efforts have concentrated on dismantling the laws 
that support the media in Zimbabwe.
    And for that reason, Zimbabwe's post-colonial government 
has failed to scrap archaic laws such as the Official Secrets 
Act, the Magistrates' Act, the Censorship and Entertainment 
Act, and the notorious Law and Order Maintenance Act. All of 
these laws have been used to prosecute journalists and to force 
news organizations out of business.
    The print media are relatively free in Zimbabwe. There is a 
great number of newspapers that are currently publishing in 
Zimbabwe. But the broadcasting media are entirely controlled by 
the ZANU-PF government through its media holding company that 
it calls the Zimbabwe Broadcasting Corporation, the ZBC as it 
is known, runs four radio and two television channels that are 
entirely dedicated to government propaganda.
    In the absence of alternative broadcasting operations in 
Zimbabwe, citizens' access to impartial news is greatly 
curtailed.
    The Supreme Court of Zimbabwe has ruled last year in 
September that the continued state monopoly on broadcasting 
violates the Constitution. In response to the Supreme Court 
ruling, the government recently passed the Broadcasting 
Services Act, which gives the state powers to determine who can 
operate a broadcasting outlet in Zimbabwe and also powers to 
ban or suspend prospective private radio and television 
stations.
    The act also imposes restrictions on foreign correspondents 
and foreign investment in the media. It is worth noting, as I 
said earlier, that the Supreme Court's media-friendly rulings 
count among the reasons why the Zimbabwean Government is bent 
on forcing liberal judges off the bench.
    Also it would be essential as a first recommendation in any 
U.S. foreign policy for Zimbabwe that you insist on 
strengthening the judiciary, which is the backbone for the 
Zimbabwean media.
    What is more, the Posts and Telecommunications Bill was 
rushed through Parliament last year in March and is now 
awaiting President Mugabe's signature. This law would 
officially liberalize the telecommunication sector in Zimbabwe, 
which sounds good, but this is a pretty flawed piece of 
legislation, from the press freedom point of view.
    Under this law, licenses for private telecommunication 
outlets can be denied if a government considers that it would 
not be in the public interest to issue a license to that 
applicant, meaning that the government unilaterally will decide 
who can run a private radio station.
    And I know that a few of the witnesses before me have 
stressed the point that the U.S. Government should support 
private radio initiatives in Zimbabwe. And this law is 
specifically designed to counter this kind of involvement.
    Until this bill becomes law, the 100 percent government-
owned Zimbabwe Posts and Telecommunications Corporation control 
the telecommunication sectors in the country. From an economic 
point of view, it is clear that this law would frustrate many 
entrepreneurs and it would also isolate Zimbabwean citizens 
from the global economy.
    There is another law which is currently in the works in 
Zimbabwe. The Zimbabwe Government call it the Freedom of 
Information Bill, but it will do exactly what the name 
suggests. Under this law, information held by individuals or by 
individuals can be made public only if the government allows 
it, and the law will also outline what sort of information is 
protected in the interests of national security. And it will 
also protect financial security, public order and health.
    And I would like to insist on a point, under the health 
issue. As you noted earlier, Zimbabwe has a serious AIDS crisis 
right now. It is in the interest of the government to prevent 
journalists from reporting on this matter. So this law is 
designed to counter any sort of allegations that would be made 
in the private media about the health situation in the country, 
which will make it very difficult for international NGO's or 
foreign governments to intervene in the health sector in 
Zimbabwe.
    This bill will also impose harsh restrictions on the 
accreditation of foreign journalists, which means that it will 
be extremely difficult for the American public to get 
information from Zimbabwe, because American journalists would 
technically not be allowed to travel to Zimbabwe.
    Visiting foreign journalists are now required to apply for 
accreditation at least 1 month before going to Zimbabwe. The 
Zimbabwean authorities will not accept applications by foreign 
journalists that are already in the country, and they have 
started to deport foreign journalists. So far, within this past 
5 days, they have deported four journalists already.
    Those that are right now in Zimbabwe are advised to leave 
the country and to apply for accreditation in their country of 
origin.
    It is worth noting that what is happening in Zimbabwe and 
with the media, is also having repercussions in neighboring 
countries. In Namibia, the SWAPO government is currently 
developing revengeful politics against many newspapers and 
radio outlets in the country by banning government expenditure, 
government money being used to buy newspapers and government 
advertisement in the private media, and so on and so forth.
    The same reality is also taking shape in Mozambique and to 
some extent in Botswana.
    CPJ believes that democracy in Zimbabwe is gravely 
threatened by the lack of press freedom. But we are heartened 
that the Senate Foreign Relations Subcommittee on African 
Affairs is concerned about the predicament of the Zimbabwean 
media. That for a long time was left alone. And we stand ready 
to provide you with any information you might require.
    And before I close, I would like to insist on the point 
that the Zimbabwean media in itself does not need any foreign 
help, per se. What will help the Zimbabwean media survive the 
current crisis is the judiciary in Zimbabwe, which has been the 
backbone of the growth of that media.
    So as my statement here shows, the issue that the 
government is currently using in Zimbabwe against the media is 
on the legal side. Journalists are being harassed by police, 
but they are not being killed.
    It is the law that support the media that are being 
dismantled. And I believe that is where the U.S. Government 
could have a stronger impact on the media in Zimbabwe.
    Thank you.
    [The prepared statement of Mr. Sorokobi follows:]

                  Prepared Statement of Yves Sorokobi

PRESS FREEDOM IN ZIMBABWE--AN ANALYSIS OF RECENT DEVELOPMENTS AFFECTING 
                               THE MEDIA

    Honorable ladies and gentlemen:
    The Committee to Protect Journalists is an independent, nonprofit 
organization based in New York City. We document, publicize, and 
protest physical and legal attacks on journalists and other violations 
of their professional rights. We also work with governments and civil 
groups to improve press freedom conditions around the world.
    As you know, Zimbabwe currently has one of Africa's most volatile 
media environments. Over the past two years, Zimbabwean journalists 
have come under increased pressure from the ZANU-PF government. Since 
December 1999, CPJ has recorded over 40 abuses of press freedom, 
including two bomb explosions against a private newspaper, the 
deportation of foreign correspondents, a host of criminal defamation 
prosecutions, and several beatings of journalists by police and 
supporters of the ruling party.
    Although Section 20 of the 1980 Constitution guarantees ``freedom 
of expression,'' the country's laws are silent on freedom of the press. 
Authorities argue that freedom of expression extends to press freedom, 
while local journalists have demanded a specific press freedom clause-
to no avail.
    Meanwhile, Zimbabwe's post-colonial government has failed to scrap 
archaic laws such as the Official Secrets Act, the Magistrates' Act, 
the Censorship and Entertainment Act, and the Law and Order Maintenance 
Act, all of which have been used to suppress press freedom.
    The print media are relatively free. But broadcast media are 
entirely controlled by the government through the Zimbabwe Broadcasting 
Corporation (ZBC), which runs four radio and two television channels 
dedicated to government propaganda. In the absence of alternative 
broadcasting operations in Zimbabwe, citizens' access to impartial news 
is greatly curtailed.
    The Supreme Court ruled on September 22, 2000 that the continued 
state monopoly on broadcasting violates Section 20 of the Constitution. 
In response to the Supreme Court ruling, the government recently passed 
the Broadcasting Services Act, which gives the state powers to 
determine who can operate a private broadcasting outlet and to ban or 
suspend private radio and TV stations. The Act also imposes 
restrictions on foreign investment in the media. It's worth noting that 
the Supreme Court's media-friendly rulings count among the reasons why 
the government is bent on forcing liberal judges off the bench.
    A Posts and Telecommunications Bill was rushed through Parliament 
in March 2000, and now awaits President Mugabe's signature. This bill 
officially liberalizes telecommunications in Zimbabwe. However, this is 
a deeply flawed piece of legislation from the press freedom point of 
view. Under the bill, licenses for private telecommunications outlets 
can be denied if the government ``considers that it would not be in the 
public interest to issue a license to the applicant.'' Until the bill 
becomes law, the 100 percent government-owned Zimbabwe Posts & 
Telecommunications Corporation (PTC), maintains a monopoly on 
telecommunications. From an economic point of view, it is clear that 
such a law will frustrate many entrepreneurs in this Information Age 
and further isolate Zimbabwean citizens from the global economy.
    A so-called Freedom of Information Bill, now in the works, will 
regulate the flow of information, indicate under what circumstances 
information held by individuals or about individuals can be made 
public, and outline what information is protected in the interests of 
national security, financial security, public order, and health. The 
bill also imposes harsh restrictions on the accreditation of 
journalists. Visiting foreign journalists are now required to apply for 
accreditation at least one month before their entry into the country. 
Authorities will not accept applications by foreign journalists already 
in the country. Those who are now in Zimbabwe are advised to leave the 
country and reapply for accreditation in their country of origin.
    CPJ believes that democracy in Zimbabwe is gravely threatened by 
the current lack of press freedom. We are heartened that the Senate's 
Subcommittee on African Affairs is concerned about the predicament of 
the Zimbabwean media. And we stand ready to provide you with any 
additional information you might require.

    Senator Feingold. Well, Mr. Sorokobi, I am grateful for 
your testimony.
    I am deeply troubled to hear the account of the threats to 
or actual intimidation of the press.
    The inability to get independent broadcasting and the 
inadequacy of any freedom of expression are alarming. I heard 
very clearly your message of the relationship of this to the 
judiciary, and to the extremely unfortunate events that have 
occurred with regard to the independence and ability of the 
judiciary in Zimbabwe to be taken seriously by the government. 
So I appreciate it and I look forward to working with you.
    Mr. Prendergast.

  STATEMENT OF JOHN PRENDERGAST, CO-DIRECTOR, AFRICA PROGRAM, 
           INTERNATIONAL CRISIS GROUP, WASHINGTON, DC

    Mr. Prendergast. Thank you, Mr. Chairman. I, like Dr. 
Rotberg, may have 17 points to make, but I am certainly not 
going to tell you in advance, and have you throw me out of 
here.
    In any event, I would like to cheat a little bit and go 
beyond my written testimony--testimony that focuses on the 
assault on the rule of law--and focus what is crucial in your 
taking the time to focus on Zimbabwe today and U.S. policy 
options. Where can we go from here? How can we increase and 
intensify our support for positive change in Zimbabwe?
    My organization, the International Crisis Group, is 
finalizing a report now in which we call for a Belgrade 
strategy which would focus on two areas and build on the 
Zimbabwe Democracy Act.
    In the first instance, it would focus on pressures aimed at 
the Government of Zimbabwe for the holding of a free and fair 
election in 2002, as Assistant Secretary Kansteiner focused on.
    And second, how we can increase support for pro-democracy 
elements, the kind of vibrant civil society and opposition 
movements that are accelerating in Zimbabwe today. And I would 
like to elaborate a little bit on both of those strategies in 
the interest of discussion and debate.
    The first: focused pressures for change. President Mugabe 
has clearly shown himself indifferent to the suffering of his 
fellow citizens and willing to use all kinds of tactics to 
insure his stay in power.
    Nevertheless, economic sanctions, if we consider and impose 
them, would hurt the people of Zimbabwe more than they would 
hurt the regime, and we should avoid them to the extent 
possible.
    Nevertheless, threats of sanction specifically targeted, 
narrowly targeted at the President and at the coterie of 
advisors around him, I think potentially stand a chance for 
modifying behavior in the run-up to the election.
    Imposing these kinds of sanctions now though, and this is 
where I might differ a bit with my colleague, Dr. Rotberg, if 
we impose these now, we may give the government an additional 
rationale for further crackdowns and would close off avenues of 
engagement that we need in the electoral process so that the 
international community can have access and potentially monitor 
this process. That is not what pro-democracy forces in Zimbabwe 
want now. They do not want us to move now on sanctions.
    What they are asking for, I believe, and it is worth 
debating in the discussion is that the international community 
should make the process leading up to the Presidential 
elections the determinant of whether we impose more serious 
pressures on the government.
    As Walter Kansteiner said earlier, we need to focus on the 
specific conditions for a free and fair election. I think that 
we will have no problem, no trouble, spelling out specifically 
what those conditions should be. But it is the consequences 
then that I think we need to discuss.
    If those conditions are not met, and there has to be a 
trigger for when we decide they are not being met and will not 
be met, then the following kinds of actions ought to be 
implemented.
    First, we should work in the Security Council for an asset 
freeze on the key ZANU-PF leaders, members of the ruling party 
and their families. Second, and very closely related to that, 
and Dr. Rotberg also pointed this out, travel restrictions also 
on these same leading members of the government and their 
families.
    Third, I think we need to look at a moratorium on the sale 
or transfer of sensitive technology, of dual-use technology, 
and ensure that anything that we or any other government around 
the world provides or trades in the open market should not be 
able to be used for military purposes for purposes of 
repression.
    Fourth, we can work again in the Security Council to expand 
the investigation that the U.N. is currently engaged in in the 
looting of Congo's resources and look more closely at the role 
that Zimbabwe has played in the Congo. The first draft focused 
primarily on Rwanda and Uganda's role, rightly so.
    But the Zimbabwean role is--perhaps not equally, but 
certainly--a terribly sad chapter in the Congo's history and is 
very closely related to the patterns of corruption inside 
Zimbabwe. So those linkages could be further exposed through 
more targeted investigation.
    And then finally, fifth, close coordination with the South 
Africans in imposing more serious kinds of initiatives than 
what I am suggesting here. And I think the region and the South 
African Government particularly, but the region in general, is 
going to hold many of the keys to whether this election comes 
off or not.
    And I think, as Walter and others have said, we need to be, 
and Bob said, we need to be very, very closely coordinating 
with the South Africans on what we can do if things are not 
allowed to progress as they ought to.
    Second, the second large area that we would focus an 
intensification of our policy on would be meaningful support 
for pro-democracy forces in Zimbabwe.
    And I think this is the most exciting possibility, not only 
for the immediate future, but also in developing the capacity 
for a transition if this election does not happen now, creating 
a capacity in the future for a meaningful change in Zimbabwe.
    I think that donor governments, including USAID are very, 
very active already in some of the more conventional aspects of 
promoting support for the pro-democracy forces and movements.
    We are already doing the kind of things like training for 
civil society groups and activities aimed at supporting the 
kind of activities that most political parties and the civil 
organizations undertake and, as well, are doing things in 
support of the free press. And those are very, very good.
    A second category in that regard is the assistance to the 
electoral process. The process, the machinery, I am sure, in 
your discussion with the opposition leaders, they have spelled 
out very clearly their desire to have the international 
community invest in the machinery of an election, and in 
monitoring that election so that this thing happens.
    So USAID is already on the ball and has a very good program 
and it could be increased if resources were made available. So 
that is good.
    Now, I would like to get to what we can do to increase what 
we are doing now in a meaningful way that may be difficult 
given the current sort of limitations of our aid program in 
Zimbabwe and throughout the world.
    I think these kinds of measures are important, but they are 
inadequate in the face of what the Mugabe regime has 
perpetrated inside Zimbabwe now.
    Therefore, we ought to look at the following. And this gets 
onto some thin ice. In the first instance, if the opposition 
parties, particularly MDC are not provided equal access to the 
media in the runup to the election, there ought to be serious 
consideration internationally in supporting an independent 
radio station somewhere outside of the country.
    A very sensitive issue, details to be determined, not 
probably good to discuss openly all these kinds of specific 
issues. Nevertheless, there has to be some threat that if there 
is not access to the media, both print and electronic, then 
there has to be some kind of a repercussion. And I think that 
the international community has to step up on this issue.
    Second, there are areas where progressive MP's, whether 
they be opposition or even reform-minded ZANU-PF members of 
parliament have been elected. In those areas, people have great 
expectations for change and nothing is happening because their 
parties are broke and because ZANU-PF is freezing out those 
areas for any kind of development.
    So what we would propose is focusing some of the 
international aid that is being provided for development and 
for humanitarian purposes into those areas, using all 
legitimate means. This is not any kind of subversive thing but 
just targeting aid into those kinds of areas to provide 
effectively a progressive dividend, if you will, for people who 
have taken the courageous stand to vote for people who are 
willing to stand for change, and now let's see some material 
benefits for it.
    Third, I think we ought to be looking now at how we can 
support the cost of governing for the MDC in the areas where 
they actually now are running local government. In Masvingo, 
for example, they have won the municipal election there. They 
have the mayorship.
    They are expected to govern the area. They have no money. 
They are broke. People have great expectations. How can they 
deliver social services? This is the kind of thing we ought to 
be looking at, institutional support for the provision of 
social services.
    Again, we are not talking about undermining the state, we 
are talking about strengthening the state and giving that kind 
of support to increase the MDC's capacity for governance in 
those areas, particularly in the area of social service 
delivery.
    This helps in the immediate term in terms of helping people 
in their basic human needs, but it also helps strengthen the 
MDC's capacity for future governance.
    And then finally, we ought to look at offering and figuring 
out ways to provide institutional support, both to opposition 
parties and to civil society organizations, like salaries, 
rents, communication equipment. These people are being starved 
out. They are being completely and totally bludgeoned and they 
need support from the outside.
    Now, we all know that the Zimbabwean Government has passed 
a law prohibiting international support for political parties. 
And that there are ways to deal with that. There are ways to 
circumvent that. There are ways to provide that kind of 
assistance. People need to be supported on the ground.
    So these are the kind of things going beyond the 
conventional but very important core-USAID program that I think 
we could use ESF resources for, to really increase the capacity 
of the pro-democracy forces to make a difference in Zimbabwe in 
the near and medium term.
    Thank you.
    [The prepared statement of Mr. Prendergast follows:]

                 Prepared Statement of John Prendergast

    Zimbabwe is in a state of free fall. It is embroiled in the worst 
political and economic crisis of its 20-year history as an independent 
state. The crisis has negatively affected virtually every aspect of the 
country and every segment of the population. It has exacerbated racial 
and ethnic tensions, severely torn the social fabric, caused 
fundamental damage to its once-strong economy, dramatically increased 
the suffering of Zimbabwe's people, and increased impunity state-
sponsored violence, the perpetrators of which operate with impunity. An 
HIV/AIDS epidemic only adds to the catastrophe. Significant post-
independence achievements in racial reconciliation, economic growth, 
and development of state institutions have already been severely 
eroded.
    The crisis has not only been an unmitigated disaster for Zimbabwe; 
like a cancer it is beginning to metastasize throughout the surrounding 
region. Erosion in the value of the South African currency and the 
Johannesburg Stock Exchange is blamed on events in Zimbabwe. The 
neighbouring countries of Mozambique, Zambia and Malawi have also been 
negatively affected economically by reducing investor interest. 
Zimbabwe's involvement in the Congo war is an externalization of its 
internal problems. As Zimbabwe's troubles intensify, they increasingly 
will have a destabilizing effect on the entire southern African region. 
And the high profile nature of the assault on what has been an 
internationally linked private sector is having negative repercussions 
on outside perceptions of the investment potential for the entire 
continent.
    Responsibility lies with President Robert Mugabe's government, 
which has mismanaged the economy, institutionalized state violence, and 
moved further toward autocratic rule. When the people of Zimbabwe began 
organizing to change the government through democratic means, the 
ruling party, the Zimbabwe African National Union-Patriotic Front 
(Zanu-PF), responded to the legal challenges with widespread and 
systematic violence and intimidation. (Sadly, the legal infrastructure 
used by the government is based on the very same laws--still on the 
books--used by Ian Smith's white minority regime in the 1970s to 
repress opposition and imprison Mugabe and his comrades.)
    Confronted with plummeting popularity and a diverse coalition 
seeking fundamental reforms, the Zanu-PF leadership appears willing to 
do anything to stay in power. Using war veterans, police, army, and 
other Zanu-PF supporters to suppress violently all opponents has but 
one objective. Robert Mugabe is rapidly institutionalising an 
authoritarian system in Zimbabwe that is aimed at ensuring Zanu-PF's 
power base.
    Despite this assault on the rule of law, a significant coalition 
for reform is growing. Civil society groups, a new political opposition 
party, and a well educated, entrepreneurial, and resilient population 
have combined to challenge directly the government's authoritarian 
rule. The southern African region and the broader international 
community must re-focus its efforts to support positive change in 
Zimbabwe.
    The following testimony attempts to document the various methods in 
which the rule of law is being undermined. As examples, the testimony 
will focus on the farm invasions, the use of a rogue group of war 
veterans, and the undermining of the judiciary. It will also examine 
implications of the crisis for the southern African region. Oral 
testimony will address U.S. policy options, including increased support 
to pro-democracy elements and meaningful pressures targeted at the 
Zanu-PF leadership.

                      THE INVASIONS OF THE FARMS:

    Within a week of the defeat of the February 2000 referendum on the 
government's proposed constitution, groups of Zanu-PF supporters 
invaded a number of white-owned farms and claimed the land, which, they 
charged, white colonialists had stolen from their ancestors. The 
invasions were led by veterans of the war against white Rhodesian rule 
and included rural subsistence farmers and unemployed youths. There is 
substantial evidence that members of the state's Central Intelligence 
Organisation (CIO) and the army were involved in planning and carrying 
out the operations. The new occupiers employed violence and 
intimidation, beating hundreds of farm workers for allegedly working 
against the referendum and threatening the farm owners. At least 31 
people were killed, hundreds had their homes burned down, and many more 
were beaten and tortured.
    The president declared the farm occupations ``peaceful 
demonstrations'' and ordered the police not to take action. The farm 
invasions have been a key element in the cynical strategy by the 
President and his cronies to strengthen their electoral prospects by 
manipulating widespread desire for genuine land reform. The government-
sanctioned land occupations had two primary goals: staunching the flow 
of funds from white commercial farmers to the opposition MDC and 
regaining an enthusiastic following among rural Zimbabweans by reviving 
anti-white, nationalist rhetoric from the 1960s. The particular 
objective is to shore up Zanu-PF's political base in the rural Shona 
heartlands, where the issue plays favorably.
    The invasions of the farms spread across the country until more 
than 1,800 properties were affected. The war veterans increased the 
level of violent intimidation and prevented many farmers from planting 
crops. On 15 April 2000, a white farmer, David Stevens, was killed. 
Although Stevens' killers were positively identified by several 
witnesses as war veterans, and continued to circulate freely in their 
communities, police did not make any arrests. To date, seven white 
farmers and ten black farm workers have been killed, some in apparently 
well organised ``hit jobs''. Despite many leads, few arrests have been 
made.
    The government and police have ignored several court orders, from 
the High and Supreme Courts, to stop the illegal occupations. Mugabe 
has repeatedly stated that neither he nor his government is going to 
heed any court order. The land seizures became the major campaign issue 
for the Zanu-PF party in the June 2000 parliamentary elections.
    More than a year after the first farm invasions, hardly a single 
commercial farm has not been negatively affected by the occupations. 
The war veterans and other occupiers have been placed above the law and 
are not prosecuted for violence perpetrated against white farmers and 
their workers, widespread theft of cattle and other property, or 
destruction of property. In contrast, police have been quick to press 
charges against white farmers who try to move the occupiers off their 
farms. Ongoing intimidation by the squatters continues seriously to 
disrupt agricultural activities.
    Mugabe has vowed that his government will not pay for the land, but 
he has said compensation will be made for permanent improvements, such 
as roads, dams and barns. The government said it will pay one-quarter 
of the assessed value of the improvements immediately and the remainder 
over five years. With the subjective determination of the value of the 
farms, the delayed payment, and Zimbabwe's current rate of inflation of 
60%, payments for the farms are likely to be just a fraction of their 
market value. Given the poor state of Zimbabwe's economy, it is not 
clear that the Government will be able to honor even this meager 
commitment. The president has also raised the possibility that white 
farmers will not be paid at all. In January 2001, Mugabe said the 
courts have no authority to order his government to pay white farmers, 
land is a political issue, and his government will choose what to pay 
white farmers for it.
    The commercial farming sector, a mainstay of the economy, has been 
badly affected. Output from tobacco, wheat and maize, as well as 
numerous other crops, is expected to be down by at least 30 percent for 
the 2000-2001 season.
    In October 2000, cabinet ministers launched the ``fast track'' land 
resettlement programme in which poor blacks, chosen by Zanu-PF 
committees, would go onto farms seized by government. The ``fast 
track'' resettlement has been slapdash and virtually unplanned. 
Families chosen for resettlement--who must be Zanu-PF supporters--are 
dropped at farms and left to redevelop the properties on their own. 
Some have been provided with seeds and fertilizer but most have not. 
State tractors have tilled some resettled farms, but many more have not 
been ploughed. None of the resettled farmers have received training in 
how to successfully develop their new plots. Many farms do not have 
adequate access to water, none to schools and clinics. Without such 
important support, many resettled farmers have abandoned the new land 
within months. None of the resettled farmers has been given title or 
even a legal document stating their rights. They remain on the farms by 
the grace of Zanu-PF.
    The issue of land ownership is indeed an historic one of justice. 
In the late 1990s, 4,500 white-owned commercial farms occupied 70 
percent of Zimbabwe's most fertile areas. By contrast, up to eight 
million small farmers were tilling inferior soils in the Communal 
Areas. Furthermore, British--and to a lesser extent American--diplomats 
did make vague and non-specific promises of support for land 
redistribution at the Lancaster House negotiations on Independence. 
These understandings helped ensure success of the talks then but remain 
a point of serious contention today.
    The question is not whether land should be redistributed, but how. 
There is general agreement that Zimbabwe needs thorough and far-
reaching land redistribution and re-development of rural areas. A 
conference of international donors in September 1998 proposed a gradual 
redistribution with participation by all sectors of society. Above all 
it would have been transparent, peaceful, and lawful. Its primary 
purpose would have been to improve the standards of living of 
Zimbabwe's subsistence farmers while maintaining the country's 
agricultural production. Small, viable farms would be created that 
would produce for the local market and for export. International donors 
Would have provided the funds needed to train new farmers and to 
develop land.
    But such a carefully planned land reform did not suit the 
government's need for a quick fix to regain rural support and 
intimidate suspected opposition supporters. Consequently, Mugabe 
instituted the chaotic ``fast track'' seizures and resettlement in 
order to appear to be the champion of rural Zimbabweans who was willing 
to stand up to the country's former white oppressors.
    The result is a loss of agricultural production that is a 
devastating blow to the already weakened economy. Its negative effects 
will be felt for years to come. Commercial farming was Zimbabwe's 
largest employer, providing jobs to more than 600,000 people. As a 
result of the farm invasions, the commercial farming sector applied in 
January 2001 to lay off more than 300,000 workers. Furthermore, 
Zimbabwe will have to import up to 500,000 metric tons of maize to 
fulfil its annual 2.1 million metric ton domestic requirement. Although 
the shortages are not expected until mid-January 2002, prices began to 
rise in June 2001, due to fears of future shortages. The maize imports 
are expected to cost from US$30 million to US$70 million, depending on 
international prices.
    For short-term political gains, the ruling party has threatened the 
very existence of a vitally important economic sector and promoted the 
breakdown of the rule of law. The instability and violence on the 
white-owned farms has been a major factor in Zimbabwe's spiralling 
crisis.

                     WAR VETERANS AS SHOCK TROOPS:

    The empowerment of a rogue group of war veterans in 2000 came as a 
major surprise to the vast majority of Zimbabweans. During the first 
two decades of independence, the government generally ignored the war 
veterans. Many took advantage of the new opportunities in Zimbabwe, 
sought education and found jobs. Some, however, remained uneducated and 
unemployed. In 1997 the late Chenjerai ``Hitler'' Hunzvi led the 
Zimbabwe Liberation War Veterans Association to prominence. The war 
vets, as they are commonly called in Zimbabwe, demanded state 
compensation for their role in the liberation struggle. After violent 
demonstrations and considerable pressure on President Mugabe, they were 
awarded ZW$50,000 each as a lump sum gratuity and a monthly pension of 
ZW$2,000.
    These unbudgeted payments of approximately ZW$5 billion were 
severely criticised by most Zimbabweans as economically irrational, if 
not suicidal. When the payments were made in November 1997, the 
Zimbabwe dollar dropped dramatically versus the U.S. dollar, and the 
budget deficit rose significantly. But by paying, Zanu-PF effectively 
ensured that it would be able to make use of a sub-group of the war 
vets (and many hoodlums masquerading as war vets) for its own purposes 
whenever the need arose. In the face of escalating unemployment and the 
rising cost of living, the war vets who had remained unskilled had 
little choice but to support the regime that was providing them an 
income.
    The association claims 40,000 members, but active members are 
estimated to be about 5,000 to 10,000. The war veterans have bolstered 
their numbers with unemployed youths and Zanu-PF supporters. In many 
cases they have been paid for their activities in the farm invasions 
and intimidation of rural voters. The war veterans have received 
support from members of the state Central Intelligence Organisation 
(CIO) and the army, according to several reports in Zimbabwean 
newspapers.
    Whereas the Youth and Women's Leagues had always been in the 
forefront of Zanu-PF's earlier election campaigns, in 2000 it was 
mainly the war vets who took charge. Mugabe could no longer trust the 
youth and the women in his party, especially after the public rejection 
of the draft constitution in the February 2000 referendum. Indeed, 
there is ample evidence to indicate that most of the active youths that 
had been the backbone of Zanu-PF election campaigns had defected to the 
MDC. The majority of these young people were aggrieved by their 
unemployed status.
    One of the key elements of the land invasions and of Zimbabwe's 
crisis as a whole is the leading role played by the war veterans as the 
Zanu-PF's extra-legal enforcers. In addition to leading the farm 
invasions and carrying out violence, including murder, on the farms, 
the war veterans have performed numerous other acts of violence against 
opponents and critics of the government. On 1 April 2000, about 300 war 
veterans attacked a peaceful, legal march in downtown Harare with 
clubs, stones and iron bars. Police stood by as the war veterans 
singled out whites. One marcher was beaten unconscious and several 
others required hospitalisation. The war veterans came from and 
returned to the Zanu-PF headquarters. No one was arrested.
    During the campaign for the June 2000 parliamentary elections, the 
war veterans led gangs that terrorized people in the rural areas. 
Thousands were beaten and at least 31 supporters of the opposition MDC 
were killed. Police took little if any action. In some cases, the war 
veterans actually operated from police stations. War veterans set up 
illegal roadblocks on main thoroughfares and forcibly prevented 
opposition supporters from campaigning. They also took over border 
posts and schools, which they accused of being run by opposition 
supporters.
    After the parliamentary elections, the war veterans continued to 
play a prominent role in supporting the ruling party. In December 2000, 
300 invaded the Supreme Court, charging that the country's highest 
court was upholding white interests. The group announced that, if the 
justices did not resign, they would be attacked in their homes. Also in 
December, in the central city of Masvingo, war veterans besieged the 
Zanu-PF provincial offices and forced the elected officials to vacate 
the premises because they had been critical of the president. The war 
veterans then imposed new officials loyal to Mugabe, and they in turn 
chose all the party members who would attend the Zanu-PF congress in 
Harare that month. In January 2001 war veterans chased municipal 
workers in Victoria Falls away from their offices for allegedly being 
disloyal to the Harare government.
    On 16 and 19 January several hundred veterans besieged a privately 
owned newspaper, the Daily News, to protest its critical coverage of 
Mugabe and of Zimbabwe's involvement in the Congo war. The war veterans 
broke windows, beat up reporters and roughed up passing whites as 
police stood by. During the same week war veterans in rural areas 
seized and burned copies of the Daily News and other privately owned 
papers, which, they said, were banned in those areas.
    War veterans' leader Hunzvi, who died in June 2001, made numerous 
incitements to violence and threatened countless Zimbabweans. He said 
his war veterans would take Zimbabwe back to war if the MDC were to win 
the parliamentary elections. During the election campaign, 30 war 
veterans used his office in Budiriro Township to detain, beat and 
torture scores of local residents. The Copenhagen-based International 
Centre for Rehabilitation of Torture Victims examined nine victims of 
political violence in a January 2001 by-election in Bikita and 
confirmed that they had been tortured. Six of the victims identified 
Hunzvi as one of their torturers. In late 2000, Hunzvi was present when 
a reporter for The Standard newspaper, Chengetai Zvauya, was dragged 
away from a meeting of war veterans and beaten for two hours. Hunzvi 
threw a petrol bomb at a small group of MDC supporters in January 2001, 
according to four MDC members of parliament who were present, and 
ordered 60 war veterans to ``burn the vehicles and beat the people''. 
He was acquitted by a High Court judge of having embezzled Z$45 million 
from the war veterans' business, Zexcom, and of defrauding the state of 
millions of dollars by filling out false claims of disabilities caused 
by the war.
    Deputies in the war veterans' organization have also incited or 
committed violence. The most prominent is Joseph Chinotimba, who is on 
the payroll of the municipality of Harare as a city security guard but 
spent all of 2000 agitating against white farmers and MDC supporters. 
Though he is awaiting trial for shooting and seriously injuring a 
neighbour who supports the MDC and rarely reports for work, he was 
promoted recently by the Harare City Council.
    Zanu-PF deployed the war vets in two by-elections after the June 
2000 elections. Two thousand vets moved into those constituencies, 
utilizing intimidation and targeted violence. As a result, Zanu-PF won 
both these lections. The MDC had previously won the Bikita West 
constituency, so the result suggested that concentrated intimidation by 
the war vets could undermine the electoral route as a viable option for 
democratic change.
    In April and May 2001, the war veterans, led by Chinotimba, 
escalated their strategy by systematically attacking urban factories 
and businesses. The veterans invaded scores of factories, abducted top 
managers, both black and white, and took them to Zanu-PF provincial 
headquarters for beatings. The war vets used the excuse that they were 
settling old labour disputes. This urban campaign's real objectives, 
however, were three-fold: to intimidate businesses suspected of 
supporting the MDC; to generate support among aggrieved urban workers, 
who overwhelmingly support the opposition; and to raise funds for the 
war vets and their activities.
    Hunzvi's death has led to jockeying for his job. Chinotimba is a 
favorite of the President, as is Andrew Ndlovu, who last year 
threatened war if Zanu-PF lost to the MDC. Loyalty to Mugabe will be 
the primary qualification.
    The war veterans have become an indispensable tool for the 
continued rule of Mugabe and Zanu-PF. Many, both inside and outside 
Zanu-PF, believe they are simply being used by Mugabe and will be 
disposed of when they are of no further Use. But the prominence of the 
war veterans at the Zanu-PF congress in December 2000 and in the by-
election campaigns in Marondera East and Bikita West shows that Mugabe 
is much too reliant upon them to sideline them. In addition, war 
veterans are being promoted into senior positions in the police--in 
many cases over longer-serving, better-qualified colleagues--casting 
doubts on the government's intention to restore the rule of law in the 
near term. In October 2000, Mugabe pardoned those who had committed 
acts of political violence in the run-up to that year's parliamentary 
elections. In December, Mugabe made the war veterans an auxiliary force 
of the army. The war veterans have been placed above the law so they 
can inflict violence with impunity on any sector of society that 
opposes the President and his agenda. They have become a political/
military/criminal force that their sponsors may wish they had never 
unleashed.

                      RULE OF LAW AND THE COURTS:

    Zimbabwe's courts have succeeded against significant odds in 
maintaining their independence. They have issued many rulings that have 
unequivocally declared government policies illegal. The High Court 
ordered the police to move illegal squatters off the farms, as did the 
Supreme Court. However, the government ignored the court orders. Mugabe 
and some cabinet ministers have publicly criticised the justices of the 
Supreme Court as ``relics of the Rhodesian era''. In particular, they 
have singled out white judges on the Supreme and High courts with 
bitter invective.
    War veterans invaded the Supreme Court, and both Supreme Court and 
High Court judges have received death threats. On 2 February, Justice 
Minister Patrick Chinamasa announced that Supreme Court Chief Justice 
Anthony Gubbay would take early retirement. Gubbay did not comment but 
legal sources say that Chinamasa told him the government could not 
guarantee his safety if he continued as Chief Justice. On February 9, 
Chinamasa told Supreme Court Justice Nick McNally that if he did not 
take early retirement, the government could not guarantee his safety. 
McNally refused to give into the thinly veiled threat. The state-owned 
Herald newspaper reported on 10 February that the government would seek 
to remove all five Supreme Court justices. Information Minister Moyo 
said the government would also seek to remove five High Court judges. 
High Court Judges James Devittie and Eshmael Chatikobo unexpectedly 
submitted their resignations in May, in disgust at the Government's 
ongoing intimidation. The campaign is an unprecedented assault on the 
judiciary and shows how openly the government will work to silence 
anyone who opposes it.
    A major reason the government wants control over the courts is to 
reduce the threat posed by cases in which the MDC has challenged the 
June 2000 victories of the ruling party in 37 constituencies on grounds 
of gross violence and intimidation during the campaign. By mid-May 2001 
the High Court had upheld the victories of three Zanu-PF candidates and 
had nullified the victories of three others. One contest ruled invalid 
was in the Buhera North constituency where MDC leader Morgan Tsvangirai 
was defeated. That race was marked by considerable violence, including 
the firebombing murders of two of Mr. Tsvangirai's campaigners by men 
in a truck with ``Zanu-PF Manicaland Province'' written on the side. 
The two identified as the perpetrators are CIO agents and have not been 
arrested for the murders.
    Invalidation of the results in 20 constituencies--and MDC victories 
in the subsequent by-elections--would give MDC a parliamentary 
majority.
    On May 1, 2001, the International Bar Association issued a report 
that condemned the government for policies which caused a breakdown of 
the rule of law. The lengthy and detailed report was issued following 
the visit of several leading lawyers to Zimbabwe. The Commonwealth 
Lawyers Association issued a similarly critical report in March 2001 
which concluded: ``It is obvious that Zimbabwe today poses the greatest 
challenge to Commonwealth political values.''

                            THE SADC FACTOR:

    The Congo conflict and internal problems in Zimbabwe both have 
undermined Southern African Development Community (SADC) cohesiveness 
and its attempts to develop a more progressive agenda. These problems 
have exacerbated the dispute over the direction of the SADC Organ on 
Politics, Security, and Defence. Rifts over the response slowed SADC's 
economic integration efforts, while the escalating crisis in Zimbabwe 
has furthered other divisions within the organisation.
    Zimbabwe is important in the SADC region for various reasons. Its 
good road and rail networks provide efficient and reliable transit 
between South Africa and Zambia, the Congo, Malawi and Tanzania. 
Zimbabwe exports considerable amounts of mineral, agricultural and 
manufactured products to countries in the SADC region. It also imports 
substantially from the region, especially from South Africa and 
Namibia. State collapse in Zimbabwe could therefore have serious 
negative implications for the region as a whole. Indeed, the prevailing 
political instability may have adversely impacted the value of the 
South African currency and the Johannesburg Stock Exchange. The 
consequences of a total collapse for South African businesses could be 
catastrophic. At the least, further, political instability would almost 
certainly mean that SADC countries that share borders with Zimbabwe 
would faced a serious refugee problem.
    Although Mugabe receives only nominal support from President Thabo 
Mbeki of South Africa, he retains the support of other presidents, such 
as Nujoma of Namibia and Chiluba of Zambia. As recently as June 12, a 
SADC ministerial meeting publicly supported the Zimbabwean government 
calling its fast track land reform program a major contribution to 
regional stability. The ministers called on the UK to honor its land 
commitments from the Lancaster House Agreement. Nevertheless, the 
region is alarmed by the deteriorating situation in Zimbabwe. Mugabe 
has ignored the quiet diplomacy of Mbeki and other regional leaders.
    South Africa is, of course, the key country within SADC. It fears 
the economic impacts of increased deterioration in Zimbabwe and worst-
case scenarios involving mass refugee flows and violence. South Africa 
has significant leverage including the ability to cut off significant 
amounts of power, water and imports. But it does not want to provoke a 
collapse and be responsible for more serious human rights violations 
that might result. Pretoria wants to manage the situation to prevent an 
explosion and is reaching out both to elements in Zanu-PF and in the 
MDC to explore possible ``soft landings'' for the Mugabe government.
    Mugabe believes he can afford to call South Africa's bluff for 
various reasons. He is aware of South Africa's own internal problems 
and its hesitance to apply serious pressure. Mbeki in the past would 
have faced resistance from South African business had he seriously 
considered imposing limited sanctions against Zimbabwe, but this could 
be changing as increasing numbers of business leaders are urging 
Pretoria to ``do something'' about Zimbabwe since investment flows are 
being negatively affected. The South African private sector was spooked 
by the Zimbabwean government's recent attacks on business interests, 
and this may have stiffened Mbeki's resolve to push more assertively 
for free and fair elections and the restoration of the rule of law.
    Virtually all the cards being played by Mugabe to further his own 
political and economic interests could pose serious problems for South 
Africa. The race card, for example, could heighten racial tensions in 
South Africa. The land issue has not been resolved in South Africa, and 
many there praise Mugabe for how he is dealing with the issue. 
Nevertheless, Mbeki must demonstrate leadership if there is to be hope 
for real, peaceful change.

    Senator Feingold. Thank you.
    I appreciate your testimony and the very specific ideas, 
including a lot of items that we can look at seriously.
    Senator Frist will not be able to come to the hearing. He 
is tied up with his Patient's Bill of Rights and I certainly 
understand and hope you will understand. I had the same 
situation when campaign finance reform was up, for 2 weeks, I 
basically could not leave the floor. You have to tend to that 
and he is one of the key players on this.
    But I know he certainly has been incredibly involved with 
this issue and of all the issues relating to Africa that we 
worked together on, we have worked together very well on this 
one in particular. We will continue to do so. So I know that he 
regrets that he cannot be here.
    What I would like to do now is ask a couple of questions 
for anyone of you who would like to answer, and then I will 
have some specific ones for each of you.
    What can the United States do to shore up the rule of law 
and democratic institutions in Zimbabwe? Mr. Prendergast has 
already given some ideas. You can supplement if you wish, but 
if the others would like to add more, please go ahead.
    Professor Rotberg. Mr. Chairman, I think it is very 
critical, as I said, in the written and the oral testimony, 
that we make it very clear where we stand on this question.
    To do so would embolden not only the opposition and civil 
society within the country, but would also embolden those in 
ZANU-PF who know what is happening is wrong, but are unable to 
speak out are unable to act. So it is important for us to say, 
as we have done, as the Secretary of the State has done, to 
speak strongly and over and over that the rule of law is a sine 
qua non for all civilized and proper countries, and that the 
United States simply will not deal with the leaders of Zimbabwe 
until such time as the rule of law is observed, and other 
things as well.
    My slight difference--with my old friend John Prendergast--
is that the carrots and sticks are important, but they are 
important now, not at a later point. We are approaching serious 
societal breakdown.
    And I am not completely sure that there will be an 
election. That is why it is important to make it clear that 
there must be an election.
    The judiciary is a way to start, of course. That is one 
part of this picture. So is the press. But I do not think that 
we have the luxury of much time.
    Senator Feingold. OK. Would you like to comment on that?
    Mr. Sorokobi. Yes. I believe, based on what I have seen in 
Zimbabwe and what I have been reading in the reports that have 
come so far in the past couple of years, it seems that the rule 
of law in Zimbabwe will only survive if the current government 
is no longer in charge of the country's affairs.
    It is essential for the government to survive that there is 
a breakdown in the rule of law. That is its survival technique.
    I do not believe that a government that depends on chaos to 
survive will be responsible in reestablishing order in the 
country. It is clear that most of the actions by the Zimbabwean 
Government in recent years have been motivated by certain 
advantages that civil society wants--or that the opposition 
parties want based on the laws of the country.
    So it is essential for them that it change these laws. And 
I do not believe that such a government would be willing to 
restore the laws that are actually pushing it out of business, 
so to speak.
    Senator Feingold. Did you want to add something?
    Mr. Prendergast. Just one thing. I do think that there is, 
to build on what Bob is saying, that we can make these kinds of 
statements that we have already made unilaterally, that 
Secretary Powell made in southern Africa, we need to do that 
multilaterally.
    I think we need to work very, very diligently to ensure 
that the Commonwealth, the European Union, and the SADC, the 
Southern African Development Community, together are putting 
out that same message--rule of law, stop state-sponsored 
violence. And that our actions are also coordinated.
    That does not mean we all have to do the same thing. There 
can be good cops and bad cops. But you have to have very, very 
close and coordinated strategizing to ensure that those things 
are done at the right times.
    Senator Feingold. My sense is that is extremely important 
at this time as well. Let me ask any of you if you see any 
parallels between recent events in Zimbabwe and what happened 
in Matabeleland in the eighties.
    For example, I recall that journalist reporting on abuses 
were harassed at that time as well. Are the situations similar, 
or are they really different?
    Mr. Sorokobi. I believe they are quite similar actually. 
Only they are worse today, the realities in Zimbabwe.
    But the problem is not only that the ruling party is trying 
to stay in power. The other side of the problem is that the 
ruling party believes that it has a natural legitimacy to rule 
Zimbabwe. It is a highly emotional idea.
    And it will be very difficult even when the ZANU-PF is no 
longer in government to prevent it from continuing to do what 
it is doing now.
    So the situation in Matabeleland was within the ZANU-PF, 
and, at the time, its sister party. And that was an issue that 
they could easily overcome.
    The problem today is that they are dealing with an opposing 
force, with completely different ideologies, completely 
different ways to look at the world. And I do not believe that 
just putting the ZANU-PF out of power is the final solution for 
what is happening in Zimbabwe now. There will be a need for a 
system to keep it not just out of power but in check too.
    Senator Feingold. Fair enough. I wanted to ask one more 
question of the group. To what degree is Zimbabwe experiencing 
a brain drain, if you will, during this difficult crisis? Do 
you think all the various talented people that have left the 
country will return once the crisis has abated?
    Professor Rotberg.
    Professor Rotberg. It is very hard to get them to go back. 
I think there is still time, but the brain drain has been going 
on since the 1980's.
    There was a man in the audience Friday at Harvard when 
Morgan Tsvangirai and I spoke, who had been out of Zimbabwe for 
27 years he was a medical person teaching at one of the Boston 
Hospitals. He was there with his seven children to show the 
children the future President of his country.
    So I said, ``are you ready to go home?'' He said only under 
certain circumstances and those circumstances have to come 
about.
    There has been a very serious brain drain and the teaching 
staff in Botswana and South Africa has been supplemented 
greatly by Zimbabweans in recent years.
    But the corrosive quality of this exodus is enormous and it 
is going on as we speak. There has been an exodus from the 
hospitals, because there are no medical supplies, because of 
the foreign exchange shortages and general mismanagement. From 
the teaching system, there has been a further exodus--there is 
no one teaching out in the rural areas and there are no 
supplies for the schools.
    So Zimbabwe, as you said in your opening remarks, Mr. 
Chairman, is shrinking in every dimension.
    Senator Feingold. Yes.
    Mr. Prendergast. Just to build on this last point: The 
implications for responding to the HIV/AIDS crisis are profound 
because of this very point.
    Senator Feingold. Yes.
    Mr. Prendergast. This accelerated brain drain particularly 
out of the medical profession needs to be countered in the 
context of our response and again to go back to salaries and 
underwriting costs for people so that they do not leave because 
they are not being paid and because they are the front lines of 
the response either in prevention or treatment. And if we 
cannot keep them there, then there is no hope for all kinds of 
research and for any kind of a positive impact.
    Senator Feingold. Thank you. Let me ask Professor Rotberg, 
and you may have already addressed this, but I just want to get 
you on the record on this. Do you think the elites within the 
Government of Zimbabwe are still profiting from Zimbabwe's 
presence in the Democratic Republic of the Congo?
    Professor Rotberg. Absolutely. All evidence that we have is 
that a small section of the elite has been profiting steadily 
from Congo and from opportunities associated with the fact that 
11,000 troops are still in the Congo. So that it is not only 
diamonds, cobalt, and other minerals in the Congo, but it is 
also the opportunities associated with doing something which is 
gray at best.
    And that has been going on. It has been going on for a long 
time and the asset freeze is, which as suggested earlier, 
better now than later. This is critical.
    I think it is generally known where these assets are. So 
the freeze is something which should be done now rather than 
later.
    But corruption is also within the country, as well as 
outside. There is almost nothing that is not tainted now.
    The government has gone in the last 3 years from some 
corruption to pervasive corruption, and they are in their last 
thrashing period so they are grabbing everything that can go.
    Senator Feingold. Thank you, Professor.
    [Pause.]
    Senator Feingold. Again for Professor Rotberg, once the 
immediate crisis has passed again, trying to look into the 
future----
    Professor Rotberg. Right.
    Senator Feingold [continuing]. What can be done to increase 
transparency in government and fight the corruption that has 
helped drive the country into its current economic crisis?
    Professor Rotberg. My impression is that civil society in 
Zimbabwe is robust despite the battering that it has received. 
It is also, as I said, the best educated population in Africa 
per capita.
    And all that, plus the fact that they have experienced 21 
years of increasingly desperate and difficult rule, means that 
there is a great desire to strengthen the rule of law to make 
sure corruption is nailed early rather than late. There is an 
intolerance on the part of civil society for corruption. The 
free press is strong without a free broadcast media. This would 
be assisted also.
    But the important thing is that under a changed regime, the 
free press would grow. Because of the bombing on January 28, 
the press runs of the Daily News are limited and they really do 
not go beyond the major cities, if that.
    So the willingness to be accountable is there, and I think 
there would be a presumption of positive willingness to be 
transparent in the future. And what is called for in the 
Zimbabwe Democracy and Recovery Act and what could follow that 
would assist in making clear that transparency is a condition 
for further assistance.
    This may sound fanciful to you, Mr. Chairman, but it would 
be nice if we could begin talking about a mini-Marshall Plan 
for a reformed Zimbabwe. It would not take much. It is a 
country which could recover quickly, unlike other countries in 
Africa, and people are poised to do so once the Mugabe regime 
is off their backs.
    Senator Feingold. Well, I appreciate that suggestion, 
because the spirit of our legislation is to look to a good 
future for Zimbabwe and in some ways it has some very positive 
elements to it, that if things go well could lead to a very 
beneficial relationship.
    Professor Rotberg. One more point, if I may?
    Senator Feingold. Yes, Professor.
    Professor Rotberg. The judicial system has been amazingly 
robust and that is why jawboning now is helpful. It is also a 
precursor of what could happen under a new regime, that is the 
rule of law.
    The chances of rule of law being adhered to are very, very, 
very high.
    Senator Feingold. Thank you. And in the context of where 
you mentioned how much information is really available to 
people, I would like to turn to Mr. Sorokobi, who is an expert 
in this, and ask, do average Zimbabweans have access to any 
information about the military activities in the Democratic 
Republic of the Congo or about how much it costs Zimbabwe? Do 
people know those sorts of things?
    Mr. Sorokobi. No. No. And there is a real effort to 
suppress any sort of news reporting on that. One of the best 
documented cases of press freedom abuse we had in Zimbabwe 
recently was the torture of two journalists with a weekly paper 
based in Harare, called the ``Zimbabwe Standard.''
    These two journalists, Ray Choto and Mark Chavunduka, had 
written a story about a possible mutiny in the Zimbabwean 
military, which was more or less linked to the fact that 
soldiers were reluctant to go to the Congo. They were unwilling 
to go and fight there because they did not believe that the 
struggle or whatever battles they were fighting in the Congo 
was in the interests of the country; rather they thought it was 
in the interest of the leaders personally.
    So based on that piece of news that these two journalists 
wrote, they were arrested and they were tortured by Zimbabwean 
military. And they were later prosecuted for criminal 
defamation.
    Fortunately, the government lost the case against them. And 
when the Supreme Court ruled that this law upon which the 
government was prosecuting these two journalists was 
unconstitutional, it is really when the tension between the 
Supreme Court and the government peaked.
    So there is a real effort on the part of the government to 
control what is being said in the country. They have been 
passing several laws in the past 12 months, which further and 
further restrict what can be said.
    Now, the tactic is quite clear and rather brutal, is to 
throw journalists out of the country. That is the easiest, 
simplest way to deal with them, is to just have them leave.
    The Zimbabwean Government believes that it can deal with 
the native Zimbabwean journalists on their own terms. The only 
contingent of journalists that they really fear are the foreign 
correspondents, whom they cannot harm in the way they can harm 
Zimbabwean journalists.
    And so right now, the tactic that the government is using 
is to force all foreign correspondents out of the country. And 
they have been very successful. The laws have been passed. 
Parliament approved it. President Mugabe ratified them and they 
are being used.
    Within the past couple of days, some five journalists were 
pushed out of the country. There are now about six foreign 
correspondents left in Zimbabwe.
    Their work permits are going to expire within the next few 
months. They will have to leave the country. The Zimbabwean--
the native media in Zimbabwe itself are trying to provide the 
citizens with information, but they do have some severe 
operational problems.
    As our colleague mentioned earlier, the printing presses of 
the country's only private newspaper were bombed a few months 
ago in January. It is a miracle that this newspaper is still 
publishing on a daily basis. It will take very little to put 
that newspaper completely out of business.
    Senator Feingold. To what extent are Zimbabwean journalists 
starting to engage in some kind of self-censorship out of fear 
for their safety or their families? Is that a problem at all?
    Mr. Sorokobi. Well, it is a problem for the newspapers that 
do not have the financial backbone to resist this kind of 
pressure.
    The Daily News, among others including The Standard and The 
Independent, have been pretty good so far at resisting this. 
But I believe that the government media is where the real 
problem is.
    The private press will continue to advocate the issues that 
they have taken up since the beginning of this crisis, but the 
government media is where the real problem is.
    The government controls the broadcasting industry, as I 
said earlier. The broadcasting industry is the only one that 
reaches all corners of Zimbabwe. The government runs four radio 
stations in local languages and just one in English. They run 
two television programs, one for the Harare surroundings and 
one that reaches all corners of the country.
    The private press only talks to an elite, so to speak, of 
Zimbabwean, people who can afford to spend a lot of money every 
day to buy the newspapers.
    The average Zimbabwean citizen, the average Zimbabwean 
voter does not know anything that the private press is doing 
except what the government media are telling them. So there is 
a real problem in access to information. People are severely 
misinformed.
    And the government media has been used to attack the 
private press repeatedly, to the point that the media 
monitoring project of Zimbabwe, which is the watchdog for the 
local media, has many times reprimanded the ZBC for spending 
too much time denigrating the private media.
    And this is part of the government strategy, is to 
discredit the private media. And because of structural and 
operational problems that the private media runs into on the 
ground, they do make a considerable level of mistakes in the 
quality of the information that they provide, which on the 
other hand, justifies the government crackdown on them.
    So it is essential that any help that is brought to the 
private media in Zimbabwe not only comes in terms of improving 
the laws or bringing in money, so they can run the printing 
press; it is important that the journalists can get adequate 
training. It is very, very important.
    I think more than anything, it is important that those 
journalists are qualified to do the job. But because of 
unemployment, people that do not necessarily qualify as 
journalists are working as journalists, making mistakes that 
are justifying the government crackdown on the private media.
    Senator Feingold. Yes. I think I know the answer to this 
one, given your other answers, but do Zimbabweans even know of 
court rulings that defy the government's wishes? Do they learn 
about that?
    Mr. Sorokobi. That is the point. The government, whenever 
there was a ruling that favored the media against government 
interests----
    Senator Feingold. I see.
    Mr. Sorokobi [continuing]. The government media, again, 
which is the only one that reaches all corners of the country, 
would present the Supreme Court ruling as a white-sponsored 
ruling----
    Senator Feingold. I see.
    Mr. Sorokobi [continuing]. Just to flare up emotions.
    Senator Feingold. Thank you.
    Finally, Mr. Prendergast, we have talked about the 
Zimbabwean Democracy Act being introduced in the Senate and we 
believe that companion legislation will be introduced in the 
House. Well, how do you feel about the timing of the 
legislation in terms of its future and what should be done with 
it in the coming months?
    Mr. Prendergast. I think moving it as quickly as possible 
to provide a legal basis for action and a demonstration of the 
will of the U.S. Congress in solidarity with the people of 
Zimbabwe is just crucial.
    There are legal bases for EU action in the Cotonou 
Agreement. There are legal bases for Commonwealth action in the 
Harare principles. And they can draw on these things.
    Similarly, the Zimbabwe Democracy Act could provide that 
kind of a legal basis to move beyond where we are now.
    Now, there is a down side and I do not know if my 
colleagues want to talk about that, but the government has 
warned, as you probably know better than anyone, that this 
would provide them--or they would use this as a pretext for 
imposing harsher measures to be determined. And they have been 
fairly specific about that with respect to this legislation.
    So I think in this case, as in with the case of so many 
other things that we have talked about where we go beyond 
current policy, a dialog is required with people on the ground, 
both the opposition parties as well as the civil society groups 
to say, ``What do you think?''
    Ask that very same question to some of the people you just 
spoke with yesterday and others who are representatives of this 
pro-democracy movement in Zimbabwe, and there are different 
views and different voices in there.
    I do not know if you--either one of you want to comment on 
it, because it is----
    Senator Feingold. But my understanding is that----
    Mr. Prendergast. Yes.
    Senator Feingold [continuing]. You do not see passage and 
signing of this law perhaps in this calendar year as 
inconsistent with your hopes for what we would do vis-a-vis the 
elections next year?
    Mr. Prendergast. No.
    Senator Feingold. Do you want to comment on that?
    Professor Rotberg. Yes. I would hope that you would get 
passage much more speedily than that because----
    Senator Feingold. So would I. But I am just trying to get a 
sense of whether there is a consensus----
    Professor Rotberg. Yes, because--but because my impression 
last month in Zimbabwe with great respect, but the passage of 
this bill will be much more significant there than it will ever 
be here.
    Senator Feingold. Well, that is taken in good spirit, and 
that is why my first hearing as chairman of this subcommittee 
was on this very subject and on this bill.
    Professor Rotberg. The government is actually petrified 
that it will pass. The ministers of the government have told me 
that this is the thing they are most worried about.
    Civil society, I think, is all for it. John Prendergast is 
right to say there could be a backlash, but as I have said over 
and over again, it is long past time for constructive 
engagement.
    It is long past time for worrying about that, because this 
government is not going to react to good discussion. This 
government is only going to react when it is forced to react.
    Senator Feingold. Thank you. Finally, Mr. Prendergast, will 
the self-styled war veterans who have perpetuated so-much of 
the recent violence accept the results of a free and fair 
election in the event that ZANU-PF is not victorious? Can Mr. 
Mugabe control them?
    Mr. Prendergast. We are talking about a rogue element that 
has been created within the war veterans association by the 
ZANU-PF government that has been hived off and used as shock 
troops in carrying out so many of the most vile tactics of the 
government over the last year in undermining the rule of law.
    Therefore, an independent decision by them is not a factor. 
It is how the government will use them in response to trends 
that go against government's fortunes in advance of the 
elections or during the elections.
    And therefore, the vast majority of the war veterans are 
law-abiding citizens, want to contribute to their country, 
certainly had and have grievances with respect to how they were 
treated in the post-independence period up to the present.
    But it is a very small group, relatively speaking, of these 
people who are doing this. And it is effectively a paramilitary 
force of the government.
    Senator Feingold. Thank you.
    I want to thank all of you for your leadership on this 
issue and your insights and your willingness to answer all of 
the different questions.
    Let me just say in conclusion that this hearing and this 
legislation is obviously not about favoring one party or 
another, or trying to, in any way, affect the legitimate 
judgment of the people of Zimbabwe about their future.
    What it is about, as you have all indicated, is restoring 
the rule of law in a country that we have often had a good 
relationship with and a country with regard to which we have 
very high hopes for the future. It is a critical nation in that 
region of Africa and therefore in the whole world.
    In order for the rule of law to be established again, the 
elections have to be free and fair. But I have heard the 
warnings.
    That does not mean that we start concerning ourselves with 
the election on the week of the election or 2 days before the 
election. And for an election to work in any country, you must 
have freedom of the press. You must have the ability of the 
people to know what is going on, who the candidates are, what 
their positions are.
    And as Mr. Sorokobi has so well indicated, for that to 
work, the judiciary has to be independent and respected. So 
these are the kinds of things that motivate our legislation.
    And I very much thank you for your participation today. 
That concludes the hearing.
    [Whereupon, at 3:22 p.m., the hearing was adjourned.]

                                   - 

</pre></body></html>
